Executive Summary
Evaluation of FSIS Management Controls Over Pre-Slaughter Activities
(Audit Report 24601-7-KC)

Results in Brief                     On January 30, 2008, the Humane Society of the United States (HSUS)
                                     released videos to the public that documented the egregious abuse of cattle
                                     awaiting slaughter at the Hallmark-Westland Meat Packing Company
                                     (hereafter referred to as Hallmark) in Chino, California. These abuses, which
                                     took place in the fall of 2007, included electric shocks, spray from high-
                                     pressure water hoses, and the ramming of cattle with a forklift. The abuses
                                     were committed by employees of the establishment in an apparent attempt to
                                     force non-ambulatory cattle to rise for slaughter. On February 1, 2008,
                                     Hallmark voluntarily ceased operations pending investigation by the U.S.
                                     Department of Agriculture (USDA), Food Safety and Inspection Service
                                     (FSIS) into the alleged abuses.

                                     FSIS determined, as part of its own investigation, that Hallmark employees
                                     violated the ban1 on slaughter of non-ambulatory disabled (―downer‖) cattle
                                     by failing to notify the FSIS Public Health Veterinarian (PHV) when animals
                                     became non-ambulatory after having passed ante-mortem inspection.
                                     ―Downer‖ animals are known to be at high risk for bovine spongiform
                                     encephalopathy (BSE).2 Therefore, it is critical that they be carefully
                                     examined before slaughter (ante-mortem) and then, if appropriate,
                                     condemned. Currently, an animal that becomes non-ambulatory after ante-
                                     mortem inspection may only be slaughtered if the PHV determines through
                                     re-examination that its condition is due to an acute injury, such as a broken
                                     leg.3 On February 4, 2008, FSIS issued a Notice of Suspension to Hallmark
                                     for its failure to maintain and implement controls to prevent the inhumane
                                     handling and slaughter of animals.

                                     On February 17, 2008, Hallmark announced that it was voluntarily recalling
                                     approximately 143 million pounds of raw and frozen beef products. This
                                     recall, the largest recall to date, was designated as Class II due to the
                                     establishment’s noncompliance with regulatory requirements and the remote
                                     possibility that the beef being recalled could cause adverse health effects if
                                     consumed.4 In public testimony USDA officials reinforced their
                                     determination that the recall occurred because the establishment did not
                                     comply with regulatory inspection requirements, not due to food safety
                                     concerns. To mitigate public concerns that downers may have entered the

1
  Title 9 Code of Federal Regulation (C.F.R.) 309.3 (e).
2
  BSE, widely referred to as ―mad cow disease,‖ is a chronic degenerative disease of the central nervous system of cattle. BSE belongs to the family of
diseases known as transmissible spongiform encephalapathies (TSE), which include scrapie in sheep and goats, chronic wasting disease (CWD) in deer
and elk, and Cruetzfeldt-Jakob disease (CJD) in humans.
3
  In May 2008, the Secretary announced plans for a total ban on the slaughter of cows too sick or weak to stand. A proposed rule to implement such a ban
was published for public comment on August 27, 2008.
4
  Class I recall involves a health hazard situation where there is a reasonable probability that eating the food will cause health problems or death.
USDA/OIG-A/24601-0007-KC                                                                                                                      Page i
                                      food supply, USDA officials cited three other interlocking safeguards that
                                      protect the public even if other safeguards, such as ante-mortem inspection,
                                      should fail; these safeguards are the removal of Specified Risk Materials
                                      (SRM),5 BSE surveillance testing, and the feed ban.6 Under the Federal Meat
                                      Inspection Act (FMIA),7 if an establishment does not present animals for
                                      ante-mortem inspection, FSIS is unable to determine that animals are fit for
                                      slaughter as human food, and therefore cannot permit the carcasses to be
                                      marked as ―inspected and passed.‖8

                                      The release of the videos by HSUS led Congress, USDA, and the public to
                                      question how such events could have occurred at a slaughter establishment
                                      that was under inspection by FSIS. FSIS inspection personnel are charged
                                      with enforcing the requirements of the Humane Methods of Slaughter Act,
                                      the FMIA, and the Poultry Products Inspection Act. FSIS inspects all meat,
                                      poultry, and processed egg products sold in interstate commerce to ensure
                                      that they meet U.S. food safety standards.

                                      At the request of the Secretary of Agriculture, the Office of Inspector General
                                      (OIG) is leading the Department's criminal investigation into potential
                                      violations of the FMIA. The investigation is ongoing, and OIG Investigations
                                      is working cooperatively with FSIS’ Office of Program Evaluation,
                                      Enforcement, and Review (OPEER) and other law enforcement agencies, as
                                      well as coordinating these efforts with the U.S. Department of Justice. At the
                                      conclusion of the investigation, a report of investigative findings will be
                                      issued to the appropriate USDA officials.

                                      This audit was conducted to determine what inspection controls and/or
                                      processes may have broken down at Hallmark, and whether the events that
                                      took place there are isolated or systemic. To make that assessment, we
                                      evaluated the adequacy of FSIS’ pre-slaughter controls at 10 other slaughter
                                      establishments which, like Hallmark, slaughter cull cows.9 We also evaluated
                                      the effectiveness of FSIS’ controls over the removal of SRMs from cattle, as
                                      well as inspector-generated samples for residue testing.10 Because of the
                                      ongoing investigation, our assessment of what happened at Hallmark is
                                      limited by the information we have to date. Also, since Hallmark has ceased
                                      operations, we could not observe and validate FSIS’ oversight and
                                      verification of that establishment’s food safety systems. Therefore, we made


5
  Title 9 C.F.R. 310.22(a) defines SRMs as: 1) the brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral column, and dorsal root ganglia of cattle 30
months of age or older, and 2) the tonsils and distal ileum of all cattle.
6
   In 1997, the Food and Drug Administration implemented a mandatory feed ban that prohibits feeding most mammalian protein to ruminants, including
cattle. This rule was strengthened in a final rule published April 25, 2008.
7
  21 U.S.C. 603 and Title 9 C.F.R. 309.1.
8
  FSIS Directive 6100.1, dated September 13, 2007.
9
  Cows are culled from a herd for reasons such as unsatisfactory milk production or reproductive failure, a weak condition or old age, or when the cost to
feed does not guarantee a profit from feeding.
10
    Although all cows may be subject to residue testing, culled dairy cows are particularly likely to have been administered antibiotics and other drugs
because of their age and physical condition.
USDA/OIG-A/24601-0007-KC                                                                                                                           Page ii
                                       our assessment as to what happened at Hallmark through interviews and
                                       review of available records, where possible.

                                       We determined that there were deliberate actions11 by Hallmark personnel12
                                       to bypass required inspections, as well as noncompliance with required
                                       inspection procedures by FSIS in-plant staff. Supervisory and other
                                       management controls did not detect and/or prevent these incidents. Although
                                       we found varying degrees of noncompliance and/or inconsistent
                                       implementation of required inspection procedures by FSIS inspectors in the
                                       other cull establishments reviewed during the audit, nothing came to our
                                       attention to indicate that unsuitable animals were passed for slaughter at these
                                       establishments. In addition, there was no single underlying reason why the
                                       noncompliances occurred. Therefore, we concluded that the events that
                                       occurred at Hallmark were not a systemic failure of the inspection
                                       processes/system as designed by FSIS. However, we did determine that
                                       management controls designed to provide oversight of the inspection
                                       processes, as well as organizational controls to demonstrate the sufficiency
                                       and competency of its personnel resources, can be strengthened to minimize
                                       the chance that events such as those at Hallmark could happen in the future.
                                       The observations made during this audit and conclusions reached are limited
                                       to cull slaughter operations, which are inherently higher risk due to the health
                                       and age of the animals slaughtered.

                                       We did not observe any systemic inhumane handling incidents at the
                                       10 establishments visited during this audit, nor did anything come to our
                                       attention that would lead us to believe any were occurring when we were not
                                       there. However, we concluded that there is an inherent vulnerability that
                                       humane handling violations can occur and not be detected by FSIS inspectors
                                       because FSIS does not provide continuous surveillance of all operating areas
                                       within a slaughter establishment at all times. Further, animals slaughtered at
                                       cull slaughter establishments, like Hallmark, are in a generally weak physical
                                       condition, which increases the risk that humane handling violations can occur
                                       as establishment employees attempt to move the animals from the unloading
                                       areas to the holding pens to slaughter. At Hallmark, egregious humane
                                       handling violations occurred when its employees attempted to move non-
                                       ambulatory cattle. In response to the events at Hallmark, on August 27, 2008,
                                       USDA announced a proposed rule to ban the slaughter of all cattle that
                                       become non-ambulatory disabled after passing ante-mortem inspection; these
                                       animals would be condemned and properly disposed of rather than
                                       slaughtered.

                                       In addition to implementing the proposed ban on non-ambulatory cattle, and
                                       establishing appropriate oversight to ensure compliance at slaughter
                                       establishments, FSIS can also strengthen management controls and improve
11
     Because of the ongoing criminal investigation, no further information can be provided in this report.
12
     The San Bernardino County District Attorney in California filed animal cruelty charges against two former Hallmark employees; both were convicted.
USDA/OIG-A/24601-0007-KC                                                                                                                      Page iii
                   its oversight of its inspection staff. FSIS must take action to demonstrate that
                   the various compensating controls it has in place over its pre-slaughter
                   inspection processes are consistently understood and implemented by its
                   inspection and management staff. We noted the following concerns.

                   Sufficiency and Competency of Inspection Resources

                           FSIS cannot demonstrate that the resources assigned to its offline
                           inspection activities are sufficient to adequately perform the tasks
                           assigned. At Hallmark, and at each of the other 10 slaughter
                           establishments we visited, we noted inspection noncompliances of
                           varying types and degree. The reasons for these noncompliances
                           varied, but at three establishments, in addition to Hallmark, the PHVs
                           stated they took shortcuts in ante-mortem inspection activities in order
                           to complete all assigned tasks. Although we observed no adverse
                           impact at the 10 cull slaughter establishments reviewed, such
                           noncompliances can facilitate attempts to bypass inspection processes,
                           as was the case at Hallmark.

                           We cannot assess the reasonableness of the supervisory span of
                           control assigned to frontline supervisors (FLS) because FSIS cannot
                           provide supportable work measurement assumptions. The FLS is
                           assigned a circuit of establishments for supervision and oversight and
                           represents the first level of supervision above the in-plant level. The
                           FLS at Hallmark, as well as the FLSs at 7 of the 10 establishments
                           reviewed, were not aware of common practices used by in-plant
                           inspection staff that did not meet FSIS requirements. Therefore, we
                           concluded that FSIS needs to develop a supportable, risk-based
                           methodology for assigning its inspection staff, and re-assess the
                           adequacy and effectiveness of its supervisory span of control.

                           FSIS does not have a formal, structured developmental program and
                           system in place to ensure that all of its inspection and supervisory
                           staff receive both formal and on-the-job training to demonstrate that
                           they possess the competencies essential for its mission-critical
                           functions. Since FSIS’ inspection staff is directly involved in ensuring
                           the safety of the food supply, we believe a structured program of
                           continuing education, certified each year, would provide the
                           organizational control needed to demonstrate a knowledgeable and
                           qualified workforce.

                   Management Controls

                           FSIS has a management control structure in place that should have
                           identified and/or mitigated the problems disclosed at Hallmark, as
                           well as those we identified at the establishments visited during the
USDA/OIG-A/24601-0007-KC                                                                   Page iv
                           audit. FSIS management, however, did not detect the inconsistent
                           application and/or noncompliance with required inspection procedures
                           that occurred at Hallmark, or at the establishments visited during the
                           audit. FSIS needs to more fully utilize its management information
                           systems to monitor compliance with its inspection requirements, as
                           well as to obtain early alerts of potential problems.

                           We reported limitations with FSIS’ management control systems in a
                           prior audit, Report 24601-07-Hy, Issues Impacting the Development
                           of Risk-Based Inspection at Meat and Poultry Processing
                           Establishments, dated December 2007. FSIS is in the process of
                           re-aligning its systems in a Public Health Information System (PHIS)
                           to better integrate and consolidate numerous applications that collect
                           information to provide mission critical support. In addition, FSIS is
                           continuing to enhance and implement systems designed to provide
                           management oversight of the public health activities of its inspection
                           workforce. We concluded that these control systems should be
                           strengthened to minimize the potential for events such as those that
                           occurred at Hallmark to happen in the future.

                   SRM Verification Activities

                           FSIS cannot effectively demonstrate that its verification of
                           establishment controls and written procedures for the removal,
                           segregation, and disposition of SRMs is adequate to detect
                           noncompliance. FSIS’ information systems do not provide
                           information to document the verification of each establishment’s
                           controls, nor do they readily provide data for analysis to detect trends
                           of noncompliance or to identify areas where more in-plant oversight is
                           needed. During our establishment visits, we observed that FSIS was
                           verifying the removal of SRMs from each carcass that passed through
                           the slaughter process. However, we found that inspectors did not
                           always detect or consistently document noncompliances with SRM
                           control requirements.

                   We believe FSIS needs to strengthen its overall management controls and
                   oversight processes to provide reasonable assurance that the compensating
                   controls FSIS has put in place for pre-slaughter inspection activities and SRM
                   verification activities are consistently and fully implemented by its inspection
                   staff.




USDA/OIG-A/24601-0007-KC                                                                    Page v
Recommendations
In Brief
                   FSIS needs to reassess the inhumane handling risks associated with cull
                   slaughter establishments and determine if more frequent or in-depth reviews
                   need to be conducted. Also, FSIS should establish a process to analyze
                   available data for anomalies or variances in both establishment and inspector
                   performance that could require additional followup by district management.

                   FSIS needs to develop a supportable, risk-based methodology for
                   determining the inspection resources needed at each establishment and its
                   appropriate supervisory structure. We also recommend that a structured
                   training and development program, with a continuing education component,
                   be developed for both its inspection and management resources. Further,
                   supervisory and management oversight of in-plant performance needs to be
                   strengthened to ensure that on-site evaluations are thorough and are
                   conducted at the required frequencies.

                   We have also made numerous recommendations for FSIS to strengthen its
                   pre-slaughter inspection processes and compensating controls over the
                   movement and tracking of animals from ante-mortem inspection, to
                   slaughter, and/or through proper disposal, residue testing procedures, and
                   SRM verification activities.

Agency Response

                   FSIS agreed with the report’s 25 recommendations. We have incorporated the
                   FSIS response in the Findings and Recommendations section of this report,
                   along with the OIG position. FSIS’ response to the draft report is included in
                   its entirety as exhibit D.

OIG Position

                   Based on FSIS’ response, we were able to reach management decisions on
                   the report’s 25 recommendations.




USDA/OIG-A/24601-0007-KC                                                                 Page vi
Abbreviations Used in This Report

BSE            Bovine Spongiform Encephalopathy
CSI            Consumer Safety Inspector
DVMS           District Veterinary Medical Specialist
eADRs          Electronic Animal Disposition Reporting System
EARO           Executive Assistant for Regulatory Operations
EIAO           Enforcement Investigations and Analysis Officer
EPA            Environmental Protection Agency
FAST           Fast Antimicrobial Screening Test
FDA            Food and Drug Administration
FI             Food Inspector
FLS            Frontline Supervisor
FMIA           Federal Meat Inspection Act
FSA            Food Safety Assessment
FSIS           Food Safety and Inspection Service
FSRE           Food Safety Regulatory Essentials
GAO            General Accountability Office
HACCP          Hazard Analysis and Critical Control Point
HATS           Humane Activities Tracking System
HMSA           Humane Methods of Slaughter Act
HSUS           Humane Society of the United States
IIC            Inspector-In-Charge
IPPS           In-Plant Performance System
LEARN          Laboratory Electronic Application for Results Notification
MAW            Method of Assigning Work
NR             Noncompliance Record
NRP            National Residue Program
OCIO           Office of the Chief Information Officer
OFDER          Office of Food Defense and Emergency Response
OIE            Office International des Epizooties
OIG            Office of Inspector General
OPEER          Office of Program Evaluation, Enforcement, and Review
PBIS           Performance Based Inspection System
PHIS           Public Health Information System
PHV            Public Health Veterinarian
RVIS           Residue Violators Information System
SRM            Specified Risk Materials
USDA           United States Department of Agriculture




USDA/OIG-A/24601-0007-KC                                                    Page vii
Table of Contents

Executive Summary ................................................................................................................................. i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. No Systemic Failure of Inspection Processes, but Management Controls Can Be
                  Strengthened to Mitigate Future Occurrences ........................................................ 5

        Finding 1 Deliberate Actions and Inspection Control Breakdowns Contributed to the
                    Regulatory Violations at Hallmark ......................................................................... 6
                         Recommendation 1......................................................................................... 14
                         Recommendation 2......................................................................................... 15
                         Recommendation 3......................................................................................... 15
                         Recommendation 4......................................................................................... 16
        Finding 2 Management Controls Were Not Effective in Detecting Inconsistent
                    Application and/or Noncompliance With Required Inspection Procedures ......... 17
                         Recommendation 5......................................................................................... 25
                         Recommendation 6......................................................................................... 26
                         Recommendation 7......................................................................................... 27
                         Recommendation 8......................................................................................... 27

    Section 2. FSIS Pre-Slaughter Activities ....................................................................................... 29

        Finding 3 Inspectors Did Not Comply With Required Inspection Procedures and/or Used
                     Inconsistent Methods in Performing Ante-Mortem Inspections ........................... 29
                          Recommendation 9......................................................................................... 35
                          Recommendation 10....................................................................................... 35
                          Recommendation 11....................................................................................... 36
                          Recommendation 12....................................................................................... 36
                          Recommendation 13....................................................................................... 37
        Finding 4 FSIS Needs to Strengthen Controls Over Secondary Entrances to Prevent the
                     Potential Slaughter of Unfit Animals .................................................................... 38
                          Recommendation 14....................................................................................... 39
        Finding 5 Effectiveness of Inspector-Generated Residue Testing as Part of the Ante-
                     Mortem Inspection Process Needs to Be Re-Assessed ......................................... 40
                          Recommendation 15....................................................................................... 43
                          Recommendation 16....................................................................................... 43
                          Recommendation 17....................................................................................... 44

    Section 3. Specified Risk Materials ............................................................................................... 46

USDA/OIG-A/24601-0007-KC                                                                                                                Page viii
        Finding 6 FSIS Needs To Strengthen Its Monitoring of the Effectiveness of SRM
                    Intervention Procedures ......................................................................................... 47
                         Recommendation 18....................................................................................... 51
                         Recommendation 19....................................................................................... 52
                         Recommendation 20....................................................................................... 52
        Finding 7 FSIS Inspectors Did Not Always Detect or Document Noncompliance With
                    SRM Regulations .................................................................................................. 53
                         Recommendation 21....................................................................................... 59
                         Recommendation 22....................................................................................... 60
                         Recommendation 23....................................................................................... 60
                         Recommendation 24....................................................................................... 61
                         Recommendation 25....................................................................................... 61

Scope and Methodology........................................................................................................................ 63

Exhibit A – Pre-Slaughter Inspection Issues ...................................................................................... 67
Exhibit B – Residue Testing Issues ...................................................................................................... 68
Exhibit C – Specified Risk Material Issues......................................................................................... 69
Exhibit D – Agency Response to the Draft Report ............................................................................ 70




USDA/OIG-A/24601-0007-KC                                                                                                             Page ix
Background and Objectives
Background                           The Food Safety and Inspection Service (FSIS) is the public health regulatory
                                     agency of the U.S. Department of Agriculture (USDA). As such, the agency
                                     protects consumers by ensuring that meat, poultry, and processed egg
                                     products are safe, wholesome, and accurately labeled. Under the Federal
                                     Meat Inspection Act (FMIA) and Poultry Products Inspection Act, FSIS
                                     inspects all meat, poultry, and processed eggs sold in interstate commerce to
                                     ensure that it meets U.S. food safety standards. FSIS is responsible for
                                     verifying that slaughter and processing establishments implement food safety
                                     systems that comply with Pathogen Reduction and Hazard Analysis and
                                     Critical Control (HACCP)13 standards. HACCP requires that all significant
                                     hazards with the products and production environment be identified and
                                     controlled. FSIS is also responsible for enforcing the Humane Methods of
                                     Slaughter Act (HMSA);14 its inspectors verify the humane treatment of
                                     livestock in slaughter establishments.

                                     FSIS employs about 7,800 in-plant inspectors at about 6,200 Federally-
                                     inspected establishments; of these, 63215 slaughter cattle. FSIS employs
                                     public health veterinarians (PHV), food inspectors (FI), and consumer safety
                                     inspectors (CSI) who are responsible for inspecting animals prior to
                                     slaughter, as well as carcasses after slaughter, to ensure the meat is safe for
                                     human consumption. The CSI performs in a relief or trouble-shooting in-plant
                                     inspection capacity but is primarily responsible for conducting regulatory
                                     oversight activities inside establishments relating to sanitation performance
                                     standards, sanitation operating procedures, pathogen reduction verification
                                     procedures, and other food security verification procedures. The CSI and
                                     PHV both observe animal handling and the slaughter process to ensure
                                     compliance with HMSA. In 2004, FSIS implemented the Humane Activities
                                     Tracking System (HATS) to document the time spent by FSIS inspection
                                     personnel in verifying that humane handling slaughter requirements are met.

                                     FSIS regulations16 require that all livestock offered for slaughter at an official
                                     establishment be examined on the day of and before slaughter. Livestock are
                                     inspected before slaughter (ante-mortem), resulting in one of three possible
                                     outcomes: 1) passed for slaughter; 2) ―suspect,‖ which requires further
                                     inspection by a PHV post-mortem; or 3) condemnation. Both suspect and
                                     condemned animals must have metal identification tags placed in an ear and
                                     be properly tracked (disposition documented) in official inspection records.
                                     Post-mortem inspection is performed on a carcass-by-carcass basis in the

13
   In 2000, FSIS completed implementation of the Pathogen Reduction and HACCP system, which required meat and poultry processing and slaughter
establishments to identify critical points in the production chain where food safety hazards could be controlled, reduced, or eliminated (process control).
14
   Public Law 95-445, 7 U.S.C. Section 1902, Chapter 48.
15
   Of these, 103 establishments primarily slaughter cull cattle. These figures are based on FSIS 2007 slaughter data.
16
   Title 9 C.F.R. 309.1 (a).
USDA/OIG-A/24601-0007-KC                                                                                                                         Page 1
                                     slaughter area after the animal has been humanely stunned and bled.
                                     Inspectors look for signs of disease or pathological conditions that would
                                     render the carcass (or parts of it) unwholesome or otherwise unfit for human
                                     consumption. USDA implemented a number of regulatory actions to reduce
                                     the likelihood that high-risk tissues would enter the human food supply. Non-
                                     ambulatory disabled or downer cattle have been banned from the food supply
                                     because these animals have been determined to be at high risk for bovine
                                     spongiform encephalopathy (BSE). USDA currently allows the slaughter of
                                     animals that become non-ambulatory because of an acute injury after passing
                                     ante-mortem inspection, but only if the PHV re-examines the animal and
                                     determines it is acceptable for slaughter.17 On August 27, 2008, USDA
                                     announced a proposed rule to impose a complete ban on the slaughter of
                                     cattle that become non-ambulatory after initial inspection by FSIS. Under the
                                     proposed rule, all cattle that are non-ambulatory disabled at any time prior to
                                     slaughter will be condemned and properly disposed of.

                                     In 2004, FSIS declared certain beef tissues and products to be specified risk
                                     materials (SRM) and banned these products from the human food supply. 18
                                     The brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral column
                                     (excluding the vertebrae of the tail, the transverse processes of the thoracic
                                     and lumbar vertebrae, and the wings of the sacrum), and dorsal root ganglia
                                     of cattle 30 months of age and older are considered SRMs, as well as the
                                     tonsils and distal ileum of the small intestine of all cattle, regardless of age.19
                                     Establishments are required to control or prevent these SRMs from entering
                                     the food supply.20 Establishments that process cattle both under and over
                                     30 months of age must segregate the banned materials and ensure the
                                     slaughter equipment is properly cleaned after animals 30 months and older
                                     are processed.21 Carcasses containing SRMs can be processed and shipped to
                                     other establishments for further processing, provided that proper controls are
                                     established to ensure that all SRMs are removed by these ―downstream
                                     processors‖22 before they are marketed for consumption.

                                     FSIS administers the National Residue Program (NRP) in cooperation with
                                     the Environmental Protection Agency (EPA) and the Department of Health
                                     and Human Services, Food and Drug Administration (FDA) to control
                                     veterinary drug, pesticide, and environmental contaminant residues in meat,
                                     poultry, and processed egg products.23 FSIS began administering the NRP in
                                     1967 and follows FDA and EPA guidance on residue monitoring and
                                     tolerance action levels.

17
   Title 9 C.F.R. 309.3 (e).
18
   Title 9 C.F.R. 310.22.
19
   Title 9 C.F.R. 310.22 (a).
20
   Title 9 C.F.R. 310.22 (b) and (e).
21
   Title 9 C.F.R. 310.22 (f).
22
   Title 9 C.F.R. 310.22 (g).
23
   FSIS regulations are published in Title 9 C.F.R., Chapter III. FSIS personnel collect samples at inspected establishments and analyze samples at FSIS
laboratories for residues. FDA and EPA have statutory authority for establishing residue tolerances or action levels under the Federal Food Drug and
Cosmetic Act, and through the Federal Insecticide, Fungicide and Rodenticide Act (as modified by the Food Quality Protection Act), respectively.
USDA/OIG-A/24601-0007-KC                                                                                                                      Page 2
                                      FSIS inspectors sample livestock carcasses and parts under the NRP’s
                                      Domestic Sampling Plan, which is comprised of two component sampling
                                      plans. Under the first of these, the Scheduled Sampling Plan, FSIS inspectors
                                      collect random samples of healthy-appearing carcasses that have been passed
                                      for consumption to determine the exposure assessment or the prevalence of
                                      residues in the national food supply. FSIS also schedules exploratory
                                      assessments to investigate or target certain types of animals or residues for
                                      ongoing or previous exposures.

                                      A second component of the NRP is Inspector-Generated Sampling. Inspectors
                                      judgmentally select a carcass for sampling based on several factors, including
                                      (a) signs or symptoms observed in the live animal, (b) pathological
                                      conditions or abnormalities of the carcass and/or its associated viscera,24
                                      (c) previous known residue violations by the animal’s owner, (d) the animal’s
                                      herd history, or (e) the fact that an animal is identified as a ―high risk‖ type,
                                      such as bob veal25 or show animals. When the inspector collects a judgmental
                                      sample, he/she is to retain (or, if necessary, condemn) the carcass and
                                      perform an in-plant screening test called FAST (Fast Antimicrobial Screening
                                      Test) on swabs from the kidney, which determines if residues of antibiotics or
                                      sulfonamides26 possibly exist in the sample. If a FAST test has a positive
                                      indication of residue, inspection staff forward the related carcass samples to
                                      FSIS laboratories for confirmation and further analysis of potential residues
                                      or other contaminants.

                                      FSIS reports the laboratory test results in the Laboratory Electronic
                                      Application for Results Notification (LEARN) system. Inspectors use
                                      LEARN for condemnation instructions if violative residue levels are found in
                                      the samples of those carcasses or parts that were retained pending test results.
                                      A sample is considered a violation when a residue is detected exceeding an
                                      FDA or EPA established tolerance or action level. If a violative level of
                                      residue is found, FSIS notifies FDA of the violation and assists in obtaining
                                      the names of producers or other parties involved in offering contaminated
                                      animals for slaughter. FDA has jurisdiction over residues on the farm and
                                      performs any necessary followup or enforcement actions with violators.




24
   Viscera are the internal organs of the animal.
25
   Cattle marketed at up to 3 weeks in age, or up to 150 pounds in weight.
26
   Sulfonamides are prescription animal drugs used as antibiotics to treat conditions such as bacterial pneumonia, foot rot, and acute mastitis.
USDA/OIG-A/24601-0007-KC                                                                                                                           Page 3
Objectives         This audit was conducted to determine what inspection controls and/or
                   processes may have broken down and whether the events at Hallmark are
                   isolated or systemic. We evaluated the adequacy of FSIS’ pre-slaughter
                   controls and determined whether improvements are needed to identify and
                   prevent similar incidents from occurring elsewhere. We also evaluated the
                   effectiveness of FSIS’ controls over the removal of SRMs from cattle, as well
                   as FSIS’ inspector-generated sampling program for residues at cull cow
                   establishments.




USDA/OIG-A/24601-0007-KC                                                                 Page 4
Findings and Recommendations
Section 1. No Systemic Failure of Inspection Processes, but Management Controls
Can Be Strengthened to Mitigate Future Occurrences

                                     The events at Hallmark are the subject of an ongoing criminal investigation.
                                     Therefore, our assessment of what happened is limited to the information that
                                     is available to date. However, through investigative analyses of Humane
                                     Society of the United States (HSUS) videos, review of inspection and
                                     slaughter documentation, and interviews with managers and employees of
                                     Hallmark, as well as FSIS inspection and supervisory personnel, we
                                     concluded that there were deliberate actions27 on the part of Hallmark
                                     personnel28 to bypass inspection processes required by Federal regulations.29
                                     In addition, the FSIS Public Health Veterinarian (PHV) and other inspection
                                     personnel assigned to Hallmark did not always perform their inspection
                                     duties as required. These noncompliances, which were not detected or
                                     prevented by FSIS’ management and supervisory controls, may have
                                     facilitated the attempts by Hallmark employees to bypass required inspection
                                     processes. Information presently available to us indicates that one non-
                                     ambulatory animal was slaughtered by Hallmark; the disposition of its
                                     carcass, however, is still under investigation.

                                     Although we found varying degrees of noncompliance and/or inconsistent
                                     implementation of required inspection procedures by FSIS personnel at the
                                     other 10 cull slaughter establishments we visited during the audit, nothing
                                     came to our attention to indicate that unsuitable animals were passed for
                                     slaughter. The noncompliances we observed at these 10 establishments were
                                     attributable to a number of different reasons, and we did not observe any
                                     single underlying factor that caused them to occur. Therefore, we concluded
                                     that the events that occurred at Hallmark were not a systemic failure of the
                                     inspection processes/system, as designed, by FSIS. However, we did
                                     determine that management controls designed to provide oversight over the
                                     inspection processes, as well as organizational controls to demonstrate the
                                     sufficiency and competency of its personnel resources, can be strengthened to
                                     mitigate the chance that events such as those that occurred at Hallmark can
                                     happen in the future.




27
   Because of the ongoing criminal investigation, no further information can be provided in this report.
28
   The San Bernardino County District Attorney filed animal cruelty charges against two former Hallmark employees; both were convicted.
29
   Title 9 C.F.R. 309.1 (a).
USDA/OIG-A/24601-0007-KC                                                                                                                  Page 5
Finding 1                                 Deliberate Actions and Inspection Control Breakdowns
                                          Contributed to the Regulatory Violations at Hallmark

                                         HUMANE HANDLING

Is Hallmark                              During 2007, there were about 632 Federally-inspected establishments
Representative of                        nationwide that slaughtered cattle. The majority slaughter primarily younger
Other FSIS-                              fat cattle.30 Hallmark, however, is representative of another group of
Inspected                                103 establishments31 that slaughter primarily cull cows. These are often
Slaughter                                "spent" dairy cows that have been sold off by their dairies when they can no
Establishments?                          longer produce milk in sufficient quantities to make them profitable. Because
                                         of their age and use, dairy cull cows tend to be in poorer physical condition
                                         than fat cattle.

                                         Although FSIS regulations and directives generally do not distinguish
                                         between establishments that slaughter fat cattle and those that slaughter cull
                                         cows, we believe the risks are greater at cull cow establishment – both in
                                         terms of potential animal abuse and food safety issues. This is because cull
                                         cows are (1) more likely to have pathological conditions that would render
                                         them unfit for use as human food; (2) in generally weaker physical condition,
                                         which increases the risk of inhumane handling by slaughter establishment
                                         employees as they attempt to move them from the unloading areas to the
                                         holding pens to slaughter; and (3) more likely to have been administered
                                         antibiotics or other drugs before arrival at the slaughter establishment, thus
                                         increasing the risk that they will contain violative levels of residues.

                                         Because of these higher risk factors, we chose 10 cull slaughter
                                         establishments to visit as part of our audit, all of which were from a group of
                                         49 establishments that, according to FSIS data, slaughtered the greatest
                                         number of cull cows during calendar year 2007. Of these, four slaughtered
                                         cull cows exclusively, while six slaughtered both cull cows and fat cattle.
                                         Details of our findings at these 10 establishments are discussed in sections
                                         2 and 3 of this report.




30
     A class of beef cattle of any age but usually greater than 1 year, judged ready for slaughter to provide prime cuts of beef.
31
     In 2007, FSIS data show that over 50 percent of cattle slaughtered at these establishments were cull cows.
USDA/OIG-A/24601-0007-KC                                                                                                            Page 6
Were Systemic                         The 10 establishments we visited, like Hallmark, slaughtered cull cows.
Humane                                During our visits, we did not observe any systemic inhumane handling
Handling                              incidents nor did anything come to our attention that would lead us to believe
Violations                            any were occurring when we were not there. However, we did note that an
Occurring at                          inherent vulnerability exists that such violations can occur and not be
Other Slaughter                       detected because FSIS does not have sufficient staffing levels to provide
Plants                                continuous surveillance of all operating areas within and around a slaughter
Reviewed?                             establishment at all times.

                                      Further, many slaughter establishments (including Hallmark) receive and
                                      unload animals from transport vehicles after business hours, as well as on
                                      weekends. When interviewed after the release of the HSUS videos, the PHV
                                      at Hallmark stated that he had asked permission to make unannounced
                                      humane handling visits to Hallmark after working hours. However, FSIS
                                      policy is that permission must be granted by an employee’s supervisor for
                                      off-hour visits. In this case, the PHV stated that the request was disapproved
                                      because of potential liability issues.32

                                      On March 10, 2008, FSIS issued two notices to strengthen its oversight of
                                      humane handling compliance. One of these reinforced an existing notice that
                                      required inspection personnel to conduct verification activities randomly
                                      throughout their tour of duty. The other required inspectors to increase the
                                      time they spend verifying humane handling regulatory requirements by at
                                      least 50 percent for a 2-month period.

                                      We concluded, therefore, that there was no evidence of systemic humane
                                      handling violations at any of the 10 establishments we visited. However,
                                      because of the limitations in FSIS’ monitoring capabilities, there is an
                                      inherent vulnerability that such violations can occur and not be detected.

Did FSIS Identify                     FSIS regulations, directives and notices33 state that if a noncompliance with
Animal Handling                       humane handling requirements has occurred - even one in which the inspector
Abuses at                             has not observed animals actually being injured or abused - FSIS personnel
Hallmark and the                      are to document the noncompliance on FSIS Form 5400-4, Noncompliance
Establishments                        Record (NR), and verify that the establishment takes the necessary corrective
Reviewed During                       actions. If corrective actions are not taken in response to an NR, or if the
the Audit?                            inspector sees an animal being injured or treated inhumanely, FSIS is to take
                                      progressively stronger actions, such as shutting down the noncompliant
                                      portion of an establishment pending the completion of corrective actions, or
                                      requiring that an abused animal be immediately euthanized. If the observed
                                      inhumane treatment is of an egregious nature, FSIS must impose a suspension
                                      action.34
32
  To date, no evidence has been disclosed to indicate that the animal handling abuses at Hallmark took place after working hours.
33
  Title 9 C.F.R. 500.2 and FSIS Directive 6900.2, Revision 1, dated November 25, 2003.
34
  Directive 6900.2, while specifying corrective actions to be taken in cases of egregious violations, did not define an ―egregious violation.‖ Notice 12-05,
dated February 18, 2005, however, addressed this need. Under this guidance, situations of active abuse such as those documented at Hallmark would be
classified as egregious and would require that a suspension action be initiated.
USDA/OIG-A/24601-0007-KC                                                                                                                         Page 7
                   At Hallmark, between December 2004 and February 2008, we found no
                   evidence that in-plant inspectors wrote NRs or took suspension actions for
                   humane handling violations. However, FSIS personnel acknowledged at least
                   two incidents of humane handling violations that occurred during this period,
                   both of which involved active abuse of animals. The inspectors did not write
                   an NR or pursue any other enforcement actions; only verbal directions were
                   provided to establishment personnel to discontinue the action or practice in
                   question. The inspectors did not believe an NR was necessary because the
                   specific incident was immediately resolved. We verified that both the PHV
                   and CSI at Hallmark received training in humane handling requirements, and
                   we further verified that this training covered the required enforcement actions
                   under Directive 6900.2. Thus, we must conclude that both of these employees
                   were aware of the requirements; however, we have no information beyond
                   the statements they made as to why they failed to follow them.

                   In December 2005, prior to the Hallmark incidents in 2007, the District
                   Veterinary Medical Specialist (DVMS) visited Hallmark for a humane
                   handling verification review and issued a report documenting
                   noncompliances with the facility, animal access to water, excessive prodding,
                   and stunning effectiveness. The DVMS report stated that
                   100 animals were observed being driven into the stunning area; 33 were
                   prodded with an electric prod, 21 of which were prodded between 2 and
                   3 times. According to the DVMS’ report, the majority of this activity took
                   place in the chute leading to the stunning box. The DVMS noted at least two
                   design features of the chute that could have caused animals to balk and not
                   move. An NR was issued as a result of the DVMS review and Hallmark was
                   required to correct the noncompliances identified.

                   We believe the degree of excessive prodding of animals by Hallmark
                   employees during the DVMS review should have raised questions as to why
                   humane handling noncompliances had not been previously identified by the
                   inspectors because (1) these actions were taken despite the presence of the
                   DVMS, and (2) they may have been at least partly related to ongoing
                   structural issues with the chute. However, there is no record that any such
                   inquiry was made by FSIS managers. A subsequent review by the DVMS in
                   May 2007 reported that corrective actions were taken on the prior review
                   findings and no further noncompliances were identified at that time.




USDA/OIG-A/24601-0007-KC                                                                   Page 8
                                    In addition to the DVMS’ findings, NR data recorded in the Performance
                                    Based Inspection System (PBIS) might have also provided a warning that
                                    inspectors at Hallmark were not identifying humane handling violations. The
                                    following table shows the NRs written for humane handling violations as a
                                    percent of total NRs written from January 2006 through January 2008.

                                                                          Humane Handling NRs                                  All NRs
                                                                     No.       No. NRs      Percent of                    No.
                                                                Establishments    (2)     Establishments             Establishments No. NRs
                                        All Slaughter                346           858         52%                         662         27,913
                                        Top 49 Cull                    38          156         78%                           49         5,338
                                        Establishments
                                        10 Establishments                8               20            80%                   10              814
                                        Reviewed
                                        Hallmark (1)                     1                 0                                  1               66

                                        (1) Hallmark is one of the top 49 cull slaughter establishments.
                                        (2) Humane handling violations were noted in 3.1% of all NRs written; 2.9% written for the top
                                        49 cull establishments; and 2.5% of the 10 establishments reviewed. Of the top 49 cull
                                        establishments, 11 (22 percent) including Hallmark had no NRs written for humane handling.


                                    As illustrated in the table, the top 49 cull slaughter establishments were over
                                    50 percent more likely than slaughter establishments in general to have NRs
                                    written for humane handling violations. The cull slaughter establishments
                                    also averaged about 4 humane handling NRs per establishment, as compared
                                    to an overall average of only about 2.5 per establishment. Hallmark’s unusual
                                    lack of an NR history in the humane handling area, in conjunction with the
                                    DVMS’ 2005 report, should have indicated the need to further examine the
                                    humane handling oversight activities at this establishment.

Could Abuses                        The abuses at Hallmark appeared to take place predominately during working
Such as Those                       hours, when FSIS personnel were on duty at the establishment.35 Office of
Shown in the                        Inspector General (OIG) Investigations’ analysis of the HSUS videos showed
HSUS Videos                         that abuses took place in the unloading areas, the pens, and between the pen
Take Place                          and slaughter areas. FSIS personnel have access to all of these areas;
Without the                         however, they cannot monitor all of them at any one particular time. As a
Knowledge of                        result, there is an inherent vulnerability that such violations could occur and
FSIS Inspectors?                    not be detected.

                                    At the time the HSUS videos were recorded, Hallmark slaughtered about
                                    500 animals each day and had approximately 147 employees engaged in
                                    various aspects of slaughter and processing operations. FSIS had five
                                    inspectors onsite – one PHV, one CSI, and three FIs. The FIs performed
                                    ―online‖ duties during slaughter operations, which meant that they were
                                    required to monitor their specific stations on the slaughter line on a
                                    continuous basis; they would not be able to observe humane handling
                                    violations in the ―offline‖ areas.
35
   Based on information made available to us from the ongoing investigation, these were the only times the HSUS reporter would have been in a position
to record the videos.
USDA/OIG-A/24601-0007-KC                                                                                                                    Page 9
                                      The PHV and CSI performed offline duties which included, but were not
                                      limited to, humane handling inspections. The PHV’s duties also included
                                      performing ante-mortem and post-mortem inspections, and supervision of the
                                      other inspection staff. The CSI’s responsibilities also included performing
                                      numerous verification inspection tasks required under HACCP, as well as
                                      functioning in a relief online inspector capacity. Both the PHV and CSI
                                      recorded they performed humane handling inspections in the Humane
                                      Handling Activities Tracking System (HATS). The CSI at Hallmark also
                                      provided inspection oversight at the processing operation at Hallmark-
                                      Westland Meat Packing Company.36 The CSI estimated he spent equal time
                                      at each facility.

                                      At the time the recorded abuses took place, Hallmark did not have a video
                                      monitoring system in place. Although our information indicates that such a
                                      system was in process of being installed before the establishment ceased
                                      operations, there is no assurance that this would have prevented animal
                                      abuses from occurring. Three of the 10 establishments we visited during the
                                      audit had video monitoring, but FSIS inspectors were not given access to
                                      these systems. At one of the establishments, its management stated they
                                      would not allow FSIS access even if requested. There are currently no
                                      regulations in place that require FSIS be granted access to establishment
                                      video surveillance systems. Therefore, we have no information to make an
                                      assessment as to the effectiveness of video monitoring in preventing
                                      inhumane treatment of animals.

Were Inspection                       FSIS Directive 6900.2, Humane Handling and Slaughter of Livestock,
Staff                                 provides the requirements for verifying the humane handling and slaughter of
Knowledgeable of                      livestock. Its provisions include the requirements that (1) the driving of
the Requirements                      livestock from unloading ramps to holding pens and from holding pens to the
of the Humane                         stunning area shall be done with a minimum of excitement and discomfort to
Handling                              the animals; and (2) electric prods, canvas slappers, or other implements
Slaughter Act?                        employed to drive animals shall be used as little as possible in order to
                                      minimize excitement and injury. Any use of implements which, in the
                                      opinion of the inspector, is excessive, is prohibited. In addition to ensuring
                                      that each establishment has facilities to protect animals from inclement
                                      weather and animals have access to water, inspectors are required to verify
                                      that animals are handled humanely at the time they are presented for ante-
                                      mortem inspection. The directive requires that inspectors write NRs when
                                      humane handling violations are observed, even in cases (such as those
                                      involving structural deficiencies) where animals have not actually been
                                      injured.




36
     Westland Meat Packing Company was a processing establishment that was co-located with Hallmark and owned by the manager of Hallmark.
USDA/OIG-A/24601-0007-KC                                                                                                                Page 10
                                        Both the PHV and CSI at Hallmark received training in humane handling. We
                                        reviewed the training modules and found that they appeared sufficiently
                                        comprehensive in terms of both the requirements and enforcement actions
                                        required, should humane handling violations be observed. Nevertheless, the
                                        inspectors did not take the proper actions when they observed violations.
                                        Neither the PHV nor CSI believed they should write an NR if an observed
                                        violation was immediately resolved. This apparently included at least two
                                        instances of egregious abuse; in one of these cases the PHV instructed the
                                        establishment to immediately euthanize the animal.

                                        At Hallmark and at the 10 establishments we visited, all 19 PHVs assigned to
                                        those establishments received training in humane handling requirements. This
                                        topic is included as part of FSIS’ Public Health Veterinarian training, a
                                        9-week course that each PHV must complete before beginning duties in that
                                        position. All 18 CSIs also received training, either as part of Basic Livestock
                                        Slaughter Inspection training or from an online humane handling training
                                        module. These employees are the ones most likely to encounter animal abuse
                                        situations, if they occur, because of their assigned duties.

                                        Of the 66 FIs assigned to the 10 establishments we visited, 27 (41 percent)
                                        had not received the Basic Livestock Slaughter Inspection training, which
                                        would have also provided them with humane handling training. FSIS also
                                        provides online training in Humane Handling, but only 5 (8 percent) of the
                                        66 FIs had taken this training. Although these employees generally perform
                                        ―online‖ duties and may not encounter humane handling situations on a
                                        routine basis, we did find that FIs are sometimes called upon to perform ante-
                                        mortem inspections, where such training would be needed.

                                        We concluded, therefore, that based on their training, PHVs and CSIs should
                                        possess the necessary knowledge to identify and enforce humane handling
                                        requirements. However, this does not extend to the FIs, who may, or may not,
                                        be assigned offline oversight duties. The events at Hallmark demonstrate
                                        there is no assurance that even a properly trained employee will identify and
                                        report humane handling violations. FSIS has other management controls,
                                        however, that should identify noncompliance by their inspectors. In the case
                                        of Hallmark, these controls broke down. The DVMS review, as well as
                                        oversight reviews by the frontline supervisors (FLS),37 indicate that FSIS
                                        failed to respond to indicators that in-plant inspectors may not have been
                                        identifying and/or reporting humane handling violations.




37
     See Finding 2 for our conclusions regarding the FLS’ supervisory span of control.
USDA/OIG-A/24601-0007-KC                                                                                      Page 11
                                     FOOD SAFETY INSPECTION PROCEDURES NOT FOLLOWED

What Pre-                            The ante-mortem inspection procedure, if implemented as specified in FSIS
Slaughter                            Directive 6100.138 and associated training, can provide reasonable assurance
Procedures Were                      that diseased animals unfit for slaughter are not entering the food supply. The
Not Followed at                      directive requires that before livestock can be offered for slaughter, they must
Hallmark? If                         be presented for ante-mortem inspection. FSIS inspectors are to observe the
Followed, Could                      animals both at rest and in motion for abnormalities and signs of disease or
These Have                           health conditions that would make them unfit for slaughter. For each animal
Provided                             inspected, the ante-mortem process will result in one of three possible
Adequate Control                     outcomes. The animal will be either: 1) passed for slaughter; 2) marked as
Over the                             ―suspect‖ for additional examination by a PHV after slaughter; or
Movement of                          3) condemned and immediately disposed of. ―Suspect‖ animals are those
Animals to                           whose condition - as observed ante-mortem - indicates the need for further
Slaughter?                           examination of the animals’ carcasses and organs at post-mortem.39 Suspect
                                     animals are required to be identified using a metal tag placed in the ear and be
                                     segregated from other animals and slaughtered separately. Only if the post-
                                     mortem examination satisfies the PHV as to an animal’s condition can the
                                     carcass enter the food chain. FSIS Form 6150-1, Identification Tag, Ante-
                                     Mortem, is to accompany the animal until it is either passed at post-mortem
                                     inspection or condemned as unfit.

                                     At Hallmark, the PHV stated that he did not fill out the 6150-1 forms himself,
                                     but rather delegated this responsibility to Hallmark employees. Further, he
                                     stated that he did not require the use of the metal ear tags to identify suspect
                                     animals because it saved time not to use them. He instructed Hallmark
                                     employees to notify him when suspect animals reached the point where post-
                                     mortem inspection would be conducted so that he could make a final
                                     determination on them. These practices essentially created an ―honor system‖
                                     in which the inspector relied on Hallmark employees to identify suspect
                                     animals moving to, and through, slaughter. This weakened control was
                                     further exacerbated by the fact that the PHV sometimes designated entire
                                     pens of animals as suspect, depending on the supplier of the animals. This
                                     practice, when followed, would have sent large numbers40 of suspect animals
                                     moving to slaughter without proper identification.

                                     The PHV also stated that establishment employees were delegated the
                                     responsibility of filling out condemnation forms on animals that were to be
                                     euthanized because of their condition. FSIS inspection personnel were not
                                     observing the denaturing41 and destruction of condemned animals. FSIS


38
   Directive 6100.1, Ante-Mortem Livestock Inspection, updated September 13, 2007.
39
   Post-mortem inspection occurs in the slaughter area after the animal has been humanely stunned and bled. Inspectors look for signs of disease or
pathological conditions that would render a carcass or part unwholesome or otherwise unfit for human consumption.
40
   An individual pen at Hallmark could contain over 30 animals.
41
   9 C.F.R. § 314.3, Disposition of Condemned Products at Official Establishments Having No Tanking Facilities, defines denaturing as the application by
injection, or other means, of carbolic acid, cresylic disinfectant, or other specified chemicals to render the meat unusable.
USDA/OIG-A/24601-0007-KC                                                                                                                    Page 12
                                   regulations42 require that condemned products or carcasses be destroyed in
                                   the presence of an inspector by incineration, or else be denatured to prevent
                                   them from re-entering the food chain.

                                   Another control specified in Directive 6100.1 requires inspectors to verify
                                   that the slaughter establishment has an animal identification system that
                                   accurately identifies each animal and establishes that inspection personnel
                                   have performed ante-mortem inspection on each animal.43 Although no
                                   specific requirements are stated beyond this, the directive cites the pen card
                                   as one example of such an identification system. Pen cards are establishment
                                   records that identify the number of cattle in each pen presented to the PHV
                                   for ante-mortem inspection. At Hallmark, as well as the other establishments
                                   we visited, the PHV’s signature on a pen card was intended to serve as
                                   evidence that the animals in the pen associated with that particular card had
                                   received ante-mortem inspection.44

                                   Although there is no evidence to indicate that the PHV at Hallmark ever
                                   signed pen cards in cases where he had not performed ante-mortem
                                   inspection, there is an increased risk that animals may not have been properly
                                   controlled for slaughter if proper identification is not made of suspect and
                                   condemned animals.

Have There Been                    In January 2004, the General Accountability Office (GAO) issued a report45
Prior Audits and                   on FSIS’ implementation of the HMSA. GAO found that because of
What                               incomplete and inconsistent inspection records, it was difficult to determine
Improvements                       the frequency, scope, and severity of humane handling slaughter violations.
Have Been Made                     They also found that because guidance was not clear, enforcement actions in
by FSIS?                           response to violations were inconsistent. GAO reported that because of the
                                   lack of information on how much time inspectors spend on verifying
                                   compliance with the HMSA, it was difficult to determine whether the number
                                   of inspectors was adequate.

                                   In response, FSIS incorporated humane handling violation codes in the
                                   electronic PBIS and developed guidance to clarify when an NR should be
                                   written and when enforcement actions should be taken for repetitive
                                   violations. FSIS also developed HATS to track the time inspectors spend on
                                   verifying compliance. Further, Notice 12-05, dated February 18, 2005, and
                                   reinforced by Notice 16-08, dated March 10, 2008, now provides FSIS
                                   employees with examples of what constitutes an egregious abuse for
                                   enforcement purposes.


42
   Title 9 C.F.R. 314.3.
43
   Directive 6100.1, Part VIII A, Documentation and Enforcement – Identification System.
44
   At Hallmark, the PHV did in most cases sign the pen cards. Our review of the pen cards for the period September 2007 through January 2008 showed
that of 224 pen cards, 5 were not signed by the PHV. However, we have no information to validate that the PHV counted the animals in each pen to
ensure the accuracy of the pen cards; the PHV stated he reviewed the pen cards for accuracy.
45
   GAO-04-247, Humane Methods of Slaughter Act, USDA Has Addressed Some Problems but Still Faces Enforcement Challenges.
USDA/OIG-A/24601-0007-KC                                                                                                               Page 13
                   GAO also recommended in its 2004 report that once FSIS developed a
                   mechanism to identify the level of effort that inspectors were currently
                   devoting to humane handling and slaughter activities, the agency also needed
                   to develop criteria for determining the level of inspection resources that are
                   appropriate based on establishment size, configuration, and history of
                   compliance. However, FSIS has not developed adequate criteria for making
                   the most effective use of its inspection resources based on HATS data. For
                   instance, DVMS reviews are performed at the same frequency at all
                   establishments, despite the greater risk of abuse (also cited in the 2004 GAO
                   report) at cull slaughter establishments. In addition, FSIS has not addressed
                   the concern that was heightened by the release of the HSUS videos – that its
                   inspectors are not deployed to continuously monitor all areas where
                   establishment employees could potentially be abusing sick or weak animals to
                   move them to slaughter.

Conclusion         We have concluded that FSIS needs to re-assess its resources at cull cow
                   establishments, so that informed decisions can be made as to the levels of
                   staffing needed to prevent future incidents, such as those at Hallmark.
                   Although we concluded that the events at Hallmark were not a systemic
                   failure of the inspection processes/system, as designed, at the other cull
                   establishments reviewed, management controls to demonstrate the sufficiency
                   and competency of its personnel resources can be strengthened (see
                   Finding 2). Also, we determined that FSIS’ management controls were
                   ineffective in disclosing the ―shortcuts‖ taken by the PHV at Hallmark (see
                   Finding 2 and section 2 of this report for a discussion of our review of the
                   ante-mortem processes at the 10 establishments we visited during the audit).

Recommendation 1

                   Require that DVMS reviews evaluate the effectiveness of in-plant FSIS
                   personnel in overseeing slaughter establishments’ humane handling activities.
                   Also, establish controls to ensure that DVMS review results are correlated
                   with prior reported violations to determine whether inspection processes need
                   to be reassessed or other administrative actions taken.

                   Agency Response

                   In the response to the official draft, FSIS agreed to issue a new directive by
                   February 2009 that would provide DVMSs with additional guidance related
                   to their reviews. This guidance will require each DVMS, before conducting a
                   Humane Handling Verification visit, to review the results of the prior DVMS
                   review as well as NRs, Memoranda of Information, and suspensions for the
                   preceding 6 months. While at an establishment, each DVMS will discuss with
                   in-plant inspection personnel any issues of concern that have been noted,
                   including any which have been discussed with the establishment’s
                   management which did not rise to the level of a noncompliance. Also through
USDA/OIG-A/24601-0007-KC                                                                 Page 14
                   discussion, the DVMS will ascertain the knowledge base of the FSIS in-plant
                   inspection staff. This information will be provided in a written document to
                   the district manager and deputy district managers, who will in turn share it
                   with the applicable frontline supervisor to address performance issues.

                   OIG Position

                   We accept FSIS’ management decision.

Recommendation 2

                   Reassess the humane handling risks associated with cull slaughter
                   establishments, and determine whether DVMS reviews should be conducted
                   on a more frequent basis at those establishments.

                   Agency Response

                   The Office of Food Defense and Emergency Response’s Data Analysis and
                   Integration Group (OFDER/DAIG) will complete an analysis of
                   noncompliance rates for humane handling procedures at dairy cow
                   establishments as compared to rates at establishments that slaughter other
                   market classes of adult cattle. The analysis will be completed by August
                   2009 and provided to Office of Field Operations (OFO) for final
                   determination. In addition, the new directive (see Recommendation 1) that
                   will be provided to the DVMSs could result in more frequent Humane
                   Handling Verification visits.

                   OIG Position

                   We accept FSIS’ management decision.

Recommendation 3

                   Establish a process to analyze PBIS data for anomalies or variances in both
                   slaughter establishment and inspector performance that could require
                   additional followup by district management.

                   Agency Response

                   OFDER/DAIG will develop a quarterly humane handling alert, based on a
                   review of establishment noncompliance data, that can be used by OFO
                   management to identify anomalies or variances in slaughter establishment
                   noncompliance or inspector performance that could require additional follow-
                   up by district management. The process will be established by January
                   2009 and the first alert will be distributed in March 2009.

USDA/OIG-A/24601-0007-KC                                                               Page 15
                   OIG Position

                   We accept FSIS’ management decision.

Recommendation 4

                   Determine whether FSIS-controlled in-plant video monitoring would be
                   beneficial in preventing and detecting animal abuses at cull cow slaughter
                   establishments.

                   Agency Response

                   In their response, agency officials stated that FSIS-controlled video cameras
                   would not provide the definitive data needed to support enforcement of
                   humane handling requirements, as compared to the direct, ongoing and
                   random verification of establishment handling and slaughter practices that
                   FSIS uses. For example, video footage might not reveal whether an animal
                   was conscious during a certain point in the slaughter process. However, they
                   agreed that the use of cameras to monitor humane handling compliance could
                   be useful to the establishments themselves in deterring and detecting animal
                   abuses, particularly if an establishment has implemented a systematic
                   approach to meeting the humane handling and slaughter requirements.

                   FSIS has authority to access establishments’ video records under the Federal
                   Meat Inspection Act, specifically 21 U.S.C. 642, and FSIS has enforced
                   access to video records when these were used to meet certain aspects of
                   HACCP and Sanitation Standards Operating Procedures (SSOP)
                   requirements. FSIS will issue Compliance Guidelines for Using Video
                   Records to industry for designing, maintaining, and validating their video
                   systems so that video records are trustworthy, accurate, and a true
                   representation of the process. An accompanying FSIS directive will clarify
                   FSIS inspection personnel’s access to and verification of establishment video
                   records. Both the guidelines and the directive will be issued by March 2009.

                   OIG Position

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-0007-KC                                                                Page 16
Finding 2                            Management Controls Were Not Effective in Detecting
                                     Inconsistent Application and/or Noncompliance With Required
                                     Inspection Procedures

                                    FSIS has a management control structure in place that should have identified
                                    and/or mitigated FSIS personnel noncompliances with required inspection
                                    procedures that occurred at Hallmark, as well as those that we observed at the
                                    other 10 establishments during this audit (see section 2). We concluded that
                                    management controls designed to provide oversight over the inspection
                                    processes, as well as organizational controls to demonstrate the sufficiency
                                    and competency of its personnel resources, can be strengthened to minimize
                                    the potential for these events from happening in the future.

                                    Prior audits46 have reported concerns with FSIS’ management controls and
                                    information technology (IT) systems that generate the data necessary to
                                    provide proper oversight and management of inspection operations. FSIS has,
                                    in recent years, made significant strides in designing and developing a
                                    management control structure that will allow better monitoring by officials at
                                    the Headquarters and district office levels than was previously possible. FSIS
                                    is re-aligning its systems into the Public Health Information System (PHIS)
                                    to better integrate and consolidate its numerous applications that collect
                                    information used to provide mission critical support for inspection,
                                    surveillance, enforcement, scheduling, modeling, and analysis. PHIS is being
                                    developed, in part, to predict hazards and vulnerabilities, communicate or
                                    report analysis results, and target resources to prevent or mitigate the risk of
                                    food-borne illness and threats to the food supply. PHIS is not scheduled for
                                    full implementation until the second half of fiscal year 2009.

                                    FSIS implemented the In-Plant Performance System (IPPS)47 and
                                    AssuranceNet48 as a means of providing management oversight of the public
                                    health activities of FSIS inspection personnel. These systems, in addition to
                                    various food safety and district management reviews, are important
                                    components in the implementation of an effective management control
                                    structure; they provide valuable performance data to supervisors and higher-
                                    level managers. However, FSIS is still in the process of fully and effectively
                                    enhancing and implementing these systems.



46
   Report 24601-07-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments, December 2007.
47
   IPPS was implemented in October 2002. IPPS is a tool used by supervisors to assess the work of non-supervisory in-plant inspection personnel. The
IPPS review process provides a framework and guidelines for supervisors to use in evaluating employee performance.
48
   AssuranceNet did not become functional until approximately February 2007. AssuranceNet tracks and monitors the performance of FSIS personnel in
key functional areas and measures performance against predetermined thresholds. We made six recommendations in a prior audit, Report 24601-07-Hy,
Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments, dated December 2007, to improve the data
used in the system for an effective management control structure.
USDA/OIG-A/24601-0007-KC                                                                                                                   Page 17
                                          SUFFICIENCY OF INSPECTION RESOURCES

Were FSIS                                 FSIS has staffing models/standards to demonstrate that resources assigned to
Resources                                 online and CSI functions are adequate to fulfill their required duties and
Adequate at                               responsibilities.49 However, there are no staffing models to identify the
Hallmark to                               number of PHVs needed for ante-mortem and post-mortem inspection
Effectively Fulfill                       functions, as well as other offline inspection tasks.
Its Pre-Slaughter
Regulatory                                FSIS regulations50 provide guidelines for maintaining online inspection
Responsibilities?                         staffing based on line speed. The Inspector-In-Charge (IIC) has the authority
                                          to require the establishment to reduce line speeds where, in his/her judgment,
                                          inspection procedures cannot be adequately performed. CSIs, who perform
                                          HACCP verification activities, are assigned based on a model called MAW,
                                          Method of Assigning Work. MAW was developed in 2003/2004 and replaced
                                          prior work measurement standards developed in the 1960’s. The MAW is
                                          based on the number of tasks assigned by the PBIS and an annualized
                                          estimate of the time needed to perform these tasks (including administrative
                                          time associated with the task). MAW’s staffing model, however, does not
                                          take into consideration the type of slaughter establishment (i.e., fat or cull
                                          cattle) or the number of animals slaughtered.

                                          For ante-mortem inspection and other offline functions (pre-slaughter and
                                          humane handling activities), no staffing models and/or standards exist. FSIS
                                          officials stated that it is up to the district managers to decide – within the
                                          limitations of the authorized resources for each district – how each
                                          establishment should be staffed based on the conditions at the establishment.
                                          An FSIS Human Resource official stated that one factor district managers
                                          should use to assign PHVs is the number of cattle requiring veterinary
                                          disposition; he would expect a cull slaughter establishment to need more
                                          PHV time because they would suspect more cattle.

                                          At Hallmark, there was one PHV and one CSI. The FLS informed us that
                                          prior to 1998, there were two PHVs assigned to the establishment. The PHV
                                          stated that he took ―shortcuts‖ in the ante-mortem process to save time, and
                                          stated that he had complained in the past about lack of staffing.

                                          At each of the other 10 slaughter establishments we visited, we noted
                                          inspection noncompliances of varying types and degree (see section 2). The
                                          reasons for these noncompliances also varied, but at three establishments, the
                                          PHVs admitted they took shortcuts in inspection activities in order to
                                          complete all tasks. One of these establishments had a vacant PHV position;
                                          therefore, one PHV was providing inspection coverage that, in the past, had
                                          been performed by two.

49
     The scope of this audit was limited to pre-slaughter activities; this audit did not review or analyze the basis for these standards.
50
     Title 9 C.F.R. 310.1.
USDA/OIG-A/24601-0007-KC                                                                                                                    Page 18
                                       Without a risk-based, supportable methodology for assigning its inspection
                                       staff, FSIS cannot demonstrate that the resources assigned to its offline
                                       inspection activities are sufficient to adequately perform the tasks assigned.

Was Sufficient                         The reasonableness of the span of control assigned to FLSs51 cannot be
Oversight                              assessed because FSIS cannot provide supportable work measurement
Provided to the                        assumptions. Therefore, we cannot determine whether FSIS assigns adequate
Inspection                             supervisory oversight to in-plant inspection activities. We found that the FLS
Activities at                          responsible for Hallmark, as well as the FLSs at 7 of the 10 establishments
Hallmark and                           reviewed, were not aware of common practices used by in-plant inspection
Other Plants                           staff that did not meet FSIS requirements (see section 2). Therefore, we
Reviewed?                              concluded that oversight of in-plant operations is adversely impacted by the
                                       supervisory span of control assigned to the frontline supervisor.

                                       FSIS assigns each FLS a circuit of establishments for supervision and
                                       oversight. The circuit represents the first level of supervision above the in-
                                       plant level. The FLS is responsible for managing, coordinating, and
                                       supervising the inspection and enforcement activities at each assigned
                                       establishment through a subordinate supervisory structure. The FLS’ duties
                                       include, but are not limited to: overseeing and coordinating the review,
                                       implementation, and assessment of in-plant inspection programs; determining
                                       the adequacy of inspection resources; ensuring the comprehensive analysis of
                                       corrective actions to resolve noncompliances; managing and implementing
                                       program and organizational changes; utilizing FSIS information systems and
                                       other analytical records to oversee establishment compliance with HACCP
                                       and other regulatory requirements; providing oversight of food safety
                                       assessments and in-depth verification compliance reviews; ensuring proper
                                       implementation of sampling initiatives; and utilizing IPPS to guide, direct and
                                       assess the overall performance of non-supervisory inspection personnel. This
                                       position is an interdisciplinary position that is classifiable as either a
                                       Supervisory Veterinary Medical Officer or a Supervisory Consumer Safety
                                       Officer.

                                       In 1990 (prior to implementation of HACCP), FSIS updated its 1984 circuit
                                       maintenance guidelines.52 Circuits were assigned based on a ―structured
                                       workload‖ of 13 to 15 supervisory workdays a month,53 to include
                                       allowances for travel between establishments. Two supervisory days per
                                       month were provided for establishments with three or more inspectors on
                                       each of two shifts.




51
   Frontline supervisors oversee the in-plant inspection activities within each circuit in a district. They generally report to a deputy district manager.
52
   FSIS Directive 1010.2, Revision 1, dated June 25, 1990.
53
   It was expected that the remainder of the month would be spent on administrative and other duties not related to direct in-plant supervision.
USDA/OIG-A/24601-0007-KC                                                                                                                            Page 19
                                     FSIS officials recognized that these guidelines needed to be updated, and in
                                     December 2005 published a ―Frontline Supervisor Study‖ based on input
                                     from 91 percent of the agency’s 156 FLSs on-board at that time. The purpose
                                     of the study was to obtain input on the importance of the FLS’s
                                     responsibilities, the time allocated to them, what the FLSs felt was needed to
                                     better fulfill their responsibilities, as well as their thoughts on the role of the
                                     FLS in the future. Some of the concerns identified by the FLSs were as
                                     follows.

                                          They were responsible for too many direct reports and too many
                                          establishments which made it difficult for them to conduct quality IPPS
                                          reviews and to perform their management control activities.

                                          Some FLSs had double the workload and responsibilities for long periods
                                          (sometimes 1-2 years) because of vacancies.

                                          Circuits that covered large geographical areas made it difficult to conduct
                                          IPPS reviews.

                                          Some FLSs found it difficult to allocate time for training because of their
                                          workload.

                                     At Hallmark, the FLS was not aware of the inspection practices that were not
                                     being followed. At the time of our audit, this FLS was responsible for
                                     60 establishments and 17 employees who reported directly to him (direct
                                     reports).54 FLSs for 2 of the establishments we reviewed were responsible for
                                     2 circuits representing 69 and 88 establishments, and 31 and 28 direct reports,
                                     respectively. Both of these assignments were temporary, and were due to
                                     vacancies in other circuits; however, two other FLSs in our sample covered
                                     over 50 establishments each, and two had a comparable or larger number of
                                     direct reports as the Hallmark FLS. We question whether the FLS can provide
                                     an adequate level of oversight with such a wide supervisory span of control.

                                     In August 2008, FSIS issued a draft revision to its Circuit Maintenance
                                     Guidelines.55 The supervisory workload of the circuit remained at 13 to
                                     15 workdays a month, while the standards specified for a circuit were set as
                                     45 establishments and 16 direct reports. Circuit workloads were based on
                                     computed allowances for supervision, the number of establishments, and
                                     travel on a monthly average basis of 20.5 workdays. The computation allows
                                     an average of 29 minutes for an establishment, regardless of shift, type, or
                                     size, and .5 day for each direct report. According to FSIS Headquarters

54
   An FLS’ direct report would generally include any employee who is not directly supervised by another in-plant FSIS supervisor such as an IIC or
Supervisory Public Health Veterinarian.
55
   These guidelines do not specify what work an FLS is expected to perform on any given visit to an establishment. According to one district manager, a
typical visit might include a review of NRs, a walk through of all or part of the facility, discussions with the IIC, and performance of any needed IPPS
reviews.
USDA/OIG-A/24601-0007-KC                                                                                                                    Page 20
                                      officials we interviewed, the determination of how many establishments and
                                      direct reports a FLS should have, as well as the amount of time allocated, is
                                      not documented through formal studies. Rather, these guidelines are based on
                                      the judgment of the officials who drafted the guidelines, and on-going
                                      discussions with FSIS field personnel. In the absence of a documented
                                      methodology to support its work measurement assumptions, we cannot
                                      determine whether FSIS assigns adequate supervisory oversight to in-plant
                                      inspection activities.

                                      The following table illustrates the span of control assigned to the FLS who
                                      was assigned to Hallmark and the 10 establishments reviewed.

                                                                                                                       FLS Not Previously
                                                                             No. of                   Direct           Aware of Conditions
                                           Establishment                 Establishments               Reports          Disclosed by Audit
                                         Hallmark                              60                       17                    Yes
                                         Establishment 1                       88                       28                    Yes56
                                         Establishment 2                       69                       31                    Yes57
                                         Establishment 3                       54                       19                     No
                                         Establishment 4                       14                       16                     No
                                         Establishment 5                       53                       16                    Yes
                                         Establishment 6                       44                       16                     No
                                         Establishment 7                       29                       14                    Yes
                                         Establishment 8                       25                       15                    Yes58
                                         Establishment 9                       14                       11                    Yes
                                         Establishment 10                      24                       17                    Yes

                                      At 7 of the 10 establishments visited, the FLSs were not aware of some or all
                                      of the conditions we noted. Based on discussions with the FLSs, we
                                      concluded that they were not aware of the conditions we noted because of the
                                      number of establishments they oversaw and their inability to spend sufficient
                                      time at each establishment.59

                                      The revised Circuit Maintenance Guidelines Directive has not been formally
                                      issued, and its effect on the structure of circuits nationwide cannot yet be
                                      assessed because we have not been provided the support and methodology for
                                      the assumptions used in the staffing guidelines. However, we did note the
                                      following when comparing the draft guidelines to the existing circuit
                                      structures for Hallmark and the 10 establishments reviewed during this audit.



56
   Due to a vacancy in another circuit, this FLS was assigned oversight over 2 circuits for a period of 6 months at the time of our audit.
57
   Due to a vacancy in another circuit, this FLS was assigned oversight over 2 circuits for a period of 6 weeks at the time of our audit.
58
   The circuit for this establishment did not have an FLS at the time of our audit; the deputy district manager was providing supervision until the position
could be filled.
59
   There are no guidelines describing the specific amount of time an FLS should spend at an establishment on any given visit.
USDA/OIG-A/24601-0007-KC                                                                                                                          Page 21
                                           The FLS for Hallmark exceeded both the recommended numbers of
                                           establishments and direct reports provided by the draft guidelines.

                                           At 7 of the 10 establishments we visited, we noted that the FLSs had not
                                           been aware of conditions that we noted, a situation we attributed at least
                                           in part to the FLS’ supervisory span of control. Of these, three exceeded
                                           the recommended number of establishments in the draft directive while
                                           three exceeded the recommended direct reports.60

                                     We concluded that supervision and oversight at Hallmark was not adequate to
                                     prevent or detect the inspection deficiencies identified to date. This was
                                     clearly evident by the IPPS reviews of the PHV; these reviews did not
                                     identify deficiencies in his work. In addition, we concluded that supervision
                                     and oversight of inspection operations can be strengthened by re-assessing
                                     supervisory span of control.

Why Did FSIS’                        As noted previously, FSIS has made significant strides in the development of
Management                           an overall management control system through the use of IPPS and
Controls Not                         AssuranceNet. These systems should have notified FSIS managers of
Provide an Alert                     potential problems at Hallmark. However, there are inherent limitations in
of Potential                         both systems, as designed, because they depend heavily on reliable, in-plant
Problems at                          observations by FSIS’ in-plant inspectors and the FLS.
Hallmark?
                                     The IPPS system is a tool for supervisors to assess the work of non-
                                     supervisory inspection personnel. The IPPS review process provides a
                                     framework and guidelines for supervisors to use in evaluating employee
                                     performance; it also allows higher-level supervisors at the district and
                                     Headquarters levels to review and evaluate the adequacy of the performance
                                     assessments. The IPPS reviews performed by the FLS at Hallmark –
                                     particularly those documenting the performance of the PHV – should have
                                     disclosed the fact that required procedures for ante-mortem inspection were
                                     not being followed.

                                     In an interview following the release of the HSUS videos, the FLS who
                                     oversaw Hallmark stated that he had not been aware of the noncompliant
                                     practices being followed by the PHV, such as allowing establishment
                                     employees to fill out required paperwork or the suspecting of entire pens of
                                     animals. Therefore, these problems were not reflected in his IPPS review of
                                     the PHV.61




60
   We did not assess the number of indirect reports at these establishments because we were not aware, at the time of fieldwork, this would be one of the
measurement criteria in the draft guidelines.
61
   The investigation is still ongoing, and we do not have complete information as to why the FLS did not become aware of these issues. However, based
on interviews taken as part of the investigation, the FLS noted that some of his onsite reviews were very limited. He cited the number of establishments he
was responsible for as one contributing factor.
USDA/OIG-A/24601-0007-KC                                                                                                                       Page 22
                                    The AssuranceNet system is the second and broader component of FSIS’
                                    management control process. This system tracks and monitors the
                                    performance of FSIS personnel in several key functional areas related to food
                                    safety and security; each functional area contains one or more monitored
                                    performance measure in which current performance is measured against
                                    predetermined thresholds. For instance, AssuranceNet monitors whether
                                    district management teams62 are reviewing at least 10 percent of the IPPS
                                    reviews performed within their districts each year; at least 1 percent of these
                                    must be done on-site, by accompanying the FLS or other supervisor.

                                    AssuranceNet is primarily designed to monitor performance trends at the
                                    circuit level and higher. We reported limitations with FSIS’ management
                                    control systems in a prior audit, Report 24601-07-Hy, Issues Impacting the
                                    Development of Risk-Based Inspection at Meat and Poultry Processing
                                    Establishments, dated December 2007. In that audit, we reported that
                                    AssuranceNet was not used to review the performance of individual
                                    establishments unless the entire circuit failed to meet a particular performance
                                    measure. We recommended that FSIS provide guidance to its management
                                    officials to view performance data down to the establishment level, as well as
                                    the circuits and districts. In response, FSIS issued new guidance63 for
                                    managers to use in reviewing AssuranceNet’s performance indicators.
                                    However, the new guidance still characterizes AssuranceNet as a monitoring
                                    tool at the circuit level and higher; managers are only expected to ―drill
                                    down‖ to individual establishments when issues are identified at the circuit
                                    level.

                                    The effectiveness of both systems can be reduced if district management
                                    teams64 do not ensure that IPPS reviews are being adequately performed.
                                    AssuranceNet data for the period July 1, 2007, through August 28, 2008,
                                    showed that only 6 of 15 districts had met or exceeded their targets for
                                    reviewing 10 percent of the completed IPPS reviews. Of the remaining nine
                                    districts, five completed half or fewer of the required reviews.65 Also, district
                                    management teams in 3 of 15 districts had not performed the required onsite
                                    reviews during the performance of IPPS reviews at establishments.66 Of our
                                    six sampled districts, we found that only one met its 10 percent review
                                    requirement, with three completing fewer than half. Two districts had not
                                    completed any onsite reviews with the FLSs. If these reviews are not
                                    performed, FSIS district managers cannot assure that FLSs are providing the
                                    proper oversight of in-plant inspectors.



62
   The district management team consists of the district manager and the deputy district managers.
63
   FSIS Notice 19-08, issued on March 26, 2008.
64
   For AssuranceNet purposes the district management team in each district is composed of the district manager and the deputy district managers.
65
   In 2008, FSIS extended the end of its rating cycle from June 30 to September 30 to meet the Departmental requirement for all USDA employees to be
on the same rating cycle; for this year, therefore, the rating period was not yet complete.
66
   This includes the district where Hallmark is located.
USDA/OIG-A/24601-0007-KC                                                                                                                   Page 23
What Other                            In fiscal year 2001, Congress provided funds to establish 17 District
Controls Should                       Veterinary Medical Specialist (DVMS) positions dedicated to the oversight of
Have Alerted                          compliance with the Humane Methods of Slaughter Act (HMSA). About
FSIS to Potential                     75 percent of the DVMS’ time is to be spent on field reviews and
Problems at                           correlations, which include visiting slaughter establishments to observe
Hallmark?                             humane handling practices. If violations are observed, the DVMS may
                                      recommend that the inspector write NRs or administer suspensions.

                                      A DVMS review was performed at Hallmark in December 2005, more than
                                      2 years before the release of the HSUS videos. The DVMS report
                                      documented serious offenses and recommended an NR be written by the
                                      PHV. However, there is no evidence in the report that the DVMS ever
                                      questioned why such activities had not been previously identified by the PHV
                                      or CSI (see Finding 1 for a further discussion of this problem). FSIS needs to
                                      establish a control to ensure that DVMS reviews are correlated with prior
                                      reported violations to determine whether inspection processes need to be
                                      reassessed or other administrative actions taken.

What Controls                         FSIS offers a variety of training courses, both formal classroom and online, to
Should Be                             develop the competencies of its inspection staff. PHVs are required to take a
Strengthened to                       9-week PHV course before they can assume that position in the field. CSIs
Ensure Its                            are provided Food Safety Regulatory Essentials (FSRE) training that covers
Personnel                             HACCP oversight duties. FIs are given Slaughter Inspection Training that
Possess the                           includes, among other subjects, training on humane handling requirements
Skills and                            and ante-mortem inspection. Other training is available online to inspectors
Knowledge                             through AgLearn,67 including three courses that deal with SRMs and the
Needed for the                        removal of SRMs from carcasses.
Tasks Assigned?
                                      FSIS, however, does not have a formal, structured developmental program in
                                      place to demonstrate and ensure that all of its employees receive both formal
                                      and on-the-job training. Since FSIS’ inspection staff is directly involved in
                                      ensuring the safety of the food supply, we believe a structured program of
                                      continuing education, certified each year, would provide the organizational
                                      control needed to demonstrate a knowledgeable and qualified workforce.

                                      FSIS training requirements are not clearly defined in FSIS’ written policy or
                                      directives. FSIS Directive 4338.1, dated March 4, 2004, Training as a
                                      Condition of Employment, requires that the PHV, CSI, and Enforcement
                                      Investigations and Analysis Officer (EIAO)68 receive training within one year
                                      of entry into their positions. However, the type of training the CSI is to
                                      receive is not specified, and the FI position is not covered in the directive.
                                      Although FSIS has a system in place to track the training each employee


67
  USDA’s online training system.
68
  The EIAO serves as a consumer safety officer and conducts onsite food safety and other verification activities, as well as investigations and analysis for
administrative and civil enforcement matters.
USDA/OIG-A/24601-0007-KC                                                                                                                         Page 24
                   receives, there is no requirement in place for managers to validate and certify
                   that all mandatory training has, in fact, been received.

                   FSIS Headquarters officials stated that FIs should receive Slaughter
                   Inspection Training during the first year of their employment. According to
                   FSIS officials, this training would, among other things, give them the basic
                   knowledge for performing ante-mortem inspections. However, of the 66 FIs
                   that had been assigned to Hallmark and the 10 establishments we visited
                   during our audit, only 39 (59 percent) had ever taken this training. Although
                   the PHV at Hallmark did not allow FIs to perform ante-mortem inspection,
                   the PHVs at four of the other establishments we visited did.

                   We noted similar concerns regarding the training provided for the removal of
                   SRMs from carcasses of cattle over 30 months of age. Although FSIS
                   officials stated that they attempt to provide each PHV and offline inspector
                   with one of the SRM courses available online from AgLearn, we found that
                   7 of 18 CSIs did not have this training.

                   FSIS officials stated that an important component of their overall training
                   program is the on-the-job training provided by the PHV and/or IIC in each
                   establishment. However, no formal program has been developed for
                   demonstrating what specific on-the-job training should be provided, nor are
                   PHVs required to maintain any specific documentation of the training
                   provided.

                   Given the critical public health mission of FSIS, we believe that FSIS needs
                   to strengthen its human capital management by establishing a structured
                   training and development program, with strong organizational controls, to
                   demonstrate the competency of its workforce in fulfilling its mission. These
                   organizational controls should be comparable to the continuing education
                   requirements for other technical and scientific professions.

Recommendation 5

                   Develop a documented, supportable methodology for assigning in-plant
                   inspection staff for offline inspection activities, including a basis for
                   assignment at different types of plants.


                   Agency Response

                   Concurrent with the effort to strengthen its public health infrastructure
                   through the development of PHIS, FSIS is planning changes to its offline
                   inspection personnel work. Models are being designed to estimate time,
                   procedures, and frequency of tasks required by establishment shift. These are
                   inclusive offline work assignments that include ante-mortem and post-
USDA/OIG-A/24601-0007-KC                                                                 Page 25
                   mortem inspection responsibilities. Testing of the new method of offline
                   inspection is scheduled for the spring of 2009, and the work assignment
                   assumptions used to develop the models will also be available at that time.
                   FSIS expects to implement this process by June 2009.

                   OIG Position

                   We accept FSIS’ management decision.

Recommendation 6

                   Reassess and support the methodology used to establish the supervisory span
                   of control for frontline supervisors.

                   Agency Response

                   FSIS officials stated that the primary objective of revising the Circuit
                   Maintenance Guidelines was to provide agency managers with key
                   parameters to use in determining the optimum numbers of FLS positions
                   based on the number of establishments, employees, and travel within a
                   district. They stated that the directive implementing the guidelines was not an
                   attempt to develop a work measurement instrument for the FLS position, nor
                   could it determine the absolute span of control of the FLS position due to the
                   highly variable nature of their work. Revising the Circuit Maintenance
                   Directive created 17 additional circuits; this resulted in fewer establishments
                   per circuit, fewer direct and indirect reporting lines to the FLSs, and reduced
                   travel time.

                   They stated that the increase in the total number of FLS positions will provide
                   management with the opportunity to strengthen management controls over in-
                   plant inspection activities, including the application of HACCP programs,
                   and allow for more routine on-site reviews of in-plant operations and ongoing
                   assessments of inspection data generated at the in-plant level. The new
                   Circuit Maintenance Guidelines Directive was completed in September 2008,
                   and FSIS will fully implement the directive during the second quarter of FY
                   2009. Further, FSIS will perform an assessment of the new guidelines by the
                   end of March 2010 to determine, among other things, the impact of the
                   reduction of the FLS span of control.

                   OIG Position

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-0007-KC                                                                 Page 26
Recommendation 7

                   Strengthen human capital management by establishing a structured training
                   and development program, with strong organizational controls, to
                   demonstrate the competency of the inspection workforce in fulfilling its
                   mission.

                   Agency Response

                   FSIS will establish policies and procedures to ensure that all mission critical
                   occupational groups (FLS, PHV, CSI, Program Investigator, Import
                   Inspector, and Food Inspector) receive formal, entry level on-the-job or
                   classroom training based on their job description, performance standards, and
                   agency policies and procedures within 1 year or sooner of starting their
                   positions. Further, FSIS will require that inspection program personnel
                   recertify this training annually. These policies and procedures will be
                   implemented in a directive or notice to be issued by September 2009.

                   In the interim, to ensure that inspection program personnel demonstrate the
                   appropriate level of competency, the IPPS Supervisory Guide has been
                   modified to include explicit instructions to conduct an IPPS assessment to
                   observe and evaluate the knowledge of in-plant inspection personnel on the
                   policies and procedures for which they are responsible. The guidelines
                   provide a ―work method‖ to ensure that supervisors ask the right questions
                   and observe the inspection personnel on every aspect of their jobs. These
                   observations are required to be documented in the IPPS report in
                   AssuranceNet. If supervisors find deficient performance, they are to ensure
                   remedial action is taken and perform a follow-up IPPS review within 60 days.
                   The draft IPPS Supervisory Guide is out for comment with the districts and
                   FLSs, and FSIS plans to issue the revised guideline by December 2008.

                   OIG Position

                   We accept FSIS’ management decision.

Recommendation 8

                   Strengthen management controls to ensure that district management teams are
                   performing on-site evaluations of IPPS reviews at the minimum frequency
                   required by AssuranceNet. In addition, evaluate whether the frequency of
                   these reviews should be increased.




USDA/OIG-A/24601-0007-KC                                                                 Page 27
                   Agency Response

                   FSIS officials stated that 4 of the 15 districts had not met the requirement for
                   reviewing 10 percent of IPPS assessments performed during the last rating
                   cycle, while one district had not met the 1 percent standard for onsite reviews
                   of IPPS assessments. They stated also that during the summer of 2008 district
                   analysts had received training to allow them to make more effective use of
                   the custom reports available through AssuranceNet. These reports allow the
                   districts to see what percentage of IPPS reviews they have performed overall,
                   as well as broken down by circuit so that they can better monitor and target
                   their efforts throughout each rating cycle. Also, the AssuranceNet system was
                   enhanced during the summer of 2008 to allow district management teams to
                   see which IPPS assessments have generated followup due to deficiencies
                   identified by the rating supervisors. Following the next IPPS cycle, an
                   assessment will be performed on these improvements to determine whether
                   they resulted in the districts meeting the required IPPS frequencies. A report
                   will be prepared of the results of this assessment. This is expected to be
                   completed in November 2009.

                   OIG Position

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-0007-KC                                                                  Page 28
Section 2. FSIS Pre-Slaughter Activities

                                        Under the FMIA and FSIS regulations and directives, FSIS inspectors are
                                        required to examine and inspect all livestock before slaughter. The purpose of
                                        this process, called ante-mortem inspection, is to ensure that animals
                                        accepted for slaughter are only those that are healthy, without non-violative
                                        levels of chemical and drug residues, and otherwise suitable for conversion
                                        into safe, wholesome products. This part of the overall inspection process is
                                        critical because certain animal health conditions69 can only be assessed while
                                        animals are still alive. If performed properly, ante-mortem inspections can be
                                        expected to remove obviously diseased animals from the food supply prior to
                                        slaughter and to identify animals that require a more extensive post-mortem
                                        examination by an FSIS veterinarian.

                                        Thus, if an establishment fails to present animals for ante-mortem inspection,
                                        or if these inspections are not carried out in accordance with FSIS
                                        directives,70 a vital safeguard to prevent diseased or otherwise unfit cattle
                                        from entering the food chain may be compromised; this was one of the
                                        related concerns raised about the egregious humane handling incidents at
                                        Hallmark.


Finding 3                               Inspectors Did Not Comply With Required Inspection Procedures
                                        and/or Used Inconsistent Methods in Performing Ante-Mortem
                                        Inspections

                                       Our reviews at 10 cull slaughter establishments found varying degrees of
                                       noncompliance and/or inconsistent implementation of required ante-mortem
                                       inspection procedures. While nothing came to our attention to indicate that
                                       unsuitable animals were being passed for slaughter at these establishments,
                                       some of the practices we observed would reduce the level of assurance that
                                       unsuitable animals would be detected and effectively controlled for proper
                                       disposition. In our visits, we found that 8 of the 10 establishments were not
                                       following required accountability procedures designed to ensure that only
                                       animals that had passed ante-mortem inspection are slaughtered. In addition,
                                       at 5 establishments we questioned the adequacy of the practices used in the
                                       ante-mortem inspection process itself. The observations made during this
                                       audit, and the conclusions reached, are limited to operations that slaughter
                                       cull cows since these animals are of higher risk for pathological conditions
                                       and the presence of drug residues.



69
     Conditions of the central nervous system can only be detected when the animal is alive.
70
     21 U.S.C. 603 and 9 C.F.R. 309.1 and FSIS Directive 6100.1, dated September 13, 2007.
USDA/OIG-A/24601-0007-KC                                                                                      Page 29
                                     Management controls designed to provide proper oversight of the inspection
                                     process, as well as organizational controls to demonstrate the sufficiency and
                                     competency of the inspection staff, were not sufficient to identify and enforce
                                     compliance. In at least two cases, the inspectors did not follow required
                                     procedures because they felt the conditions at their establishments allowed for
                                     deviations. This was particularly true at smaller establishments, where
                                     inspection personnel believed they could visually track and monitor
                                     individual animals through the ante-mortem inspection and slaughter
                                     processes. In one instance, the PHV stated that there was insufficient time or
                                     personnel to perform ante-mortem inspection in the manner required by
                                     Directive 6100.1; in others, the inspectors cited limitations or restrictions
                                     resulting from the physical layout of the slaughter establishments. FSIS
                                     supervisory personnel were either unaware of these situations or did not
                                     believe they were problems that needed to be corrected. The concerns we
                                     noted in the ante-mortem inspection procedures at the 10 cull establishments
                                     are described below.

Inadequate                           At five establishments, FSIS inspectors allowed establishment employees to
Tracking of                          control the required accountability process that is designed to provide
Animals                              assurance that only animals that have received ante-mortem inspection are
                                     allowed to go to slaughter. Directive 6100.1 requires FSIS inspectors to
                                     verify that slaughter establishments have animal identification systems in
                                     place to identify each animal, and ensure that ante-mortem inspection is
                                     performed on each animal.

                                     The directive does not provide specifics on the required animal identification
                                     systems, but does cite the ―pen card‖ system as an example. Under this
                                     method, each pen of animals presented for ante-mortem inspection is
                                     accompanied by a pen card71 which, at minimum, lists the number and type
                                     of animals being presented. At the discretion of individual establishments,
                                     other information such as owner identification can be included. The signature
                                     of the FSIS PHV on a pen card is used to provide evidence that the associated
                                     pen of animals has received ante-mortem inspection.

                                     Inspectors did not effectively use the pen cards or other techniques to ensure
                                     that all animals moved to slaughter receive ante-mortem inspections.
                                     Specifically, we noted the following.




71
  One of the 10 establishments we visited used an equivalent form called a drive sheet, which combined information from multiple pens of animals rather
than separating them on individual cards.
USDA/OIG-A/24601-0007-KC                                                                                                                    Page 30
                                            At three of the five establishments, inspectors did not verify that the
                                            number of animals shown on each pen card reflected the number of
                                            animals being presented for ante-mortem inspection and passed for
                                            slaughter. As noted in Finding 1, inaccurate data on pen cards could
                                            potentially be used by establishment employees to bypass the
                                            accountability system and move uninspected animals to slaughter.

                                            At four of the five establishments, inspectors did not, even on a periodic
                                            basis, reconcile the pen cards to establishment slaughter records to ensure
                                            that the number of animals slaughtered did not exceed the number on
                                            which ante-mortem inspection had been performed. Since FSIS, in its
                                            training, recommends that PHVs maintain pen cards for one week, the
                                            only record remaining to document the number of animals passing ante-
                                            mortem inspection and approved for slaughter are the establishment
                                            slaughter records. Therefore, reconciliation of this accountability system
                                            by the inspector is a critical control.

                                            At one establishment, the inspector simply pre-signed blank pen cards and
                                            provided these to establishment personnel for later use. When
                                            interviewed, the inspector claimed not to have understood the purpose or
                                            significance of these cards.72

                                      The failure to properly control, verify, and reconcile animals approved for
                                      slaughter could potentially facilitate deliberate acts to bypass inspection
                                      processes.

Animals Were                          Ante-mortem inspection procedures were either incorrectly or inconsistently
Not Consistently                      implemented at 5 of the 10 establishments we visited. Animals were not
Observed at Rest                      always observed both at rest and in motion, nor were they always observed
and in Motion                         individually. Inspection personnel attributed their actions to either a lack of
                                      sufficient time or personnel to conduct the inspection procedures as required,
                                      or to limitations in the physical structure and layout of the establishments.

                                      At three establishments, inspectors did not always observe cattle both at rest
                                      and in motion, as required,73 when performing ante-mortem inspection. FSIS
                                      training materials74 state that certain abnormal signs, such as labored
                                      breathing, are easier to detect while the animals are at rest. However, other
                                      abnormalities, such as lameness, may not be detected until the animals are in
                                      motion. Either of these conditions are potential signs that animals may be
                                      suffering from pathological conditions, violative drug residue levels, or
                                      central nervous system conditions, which would require that they be either
                                      condemned and immediately euthanized, or else designated as ―U.S. Suspect‖
72
   Inspection operations at this establishment are currently the subject of an OIG Investigation.
73
   FSIS Directive 6100.1, Ante-Mortem Livestock Inspection, dated September 13, 2007.
74
   FSIS Training Module, Basic Livestock Slaughter and Inspection.
USDA/OIG-A/24601-0007-KC                                                                                      Page 31
                                     so that their fitness for human consumption can be evaluated during post-
                                     mortem examination.

Animals Not                          We noted inconsistent practices for viewing animals on both sides during
Observed on                          ante-mortem inspection. At three establishments, inspectors did not observe
Both Sides                           both sides of the animal. Although regulations do not require in-motion
                                     inspection from both sides, this procedure is taught to new inspectors as the
                                     proper method of inspection. FSIS training materials citing this procedure are
                                     available to the public from FSIS’ website. Observation of both sides of the
                                     animal is important at establishments that slaughter older cattle that are more
                                     susceptible to disease.

                                     FSIS Headquarters officials stated that there is no requirement, nor is it
                                     necessary, to view the animals on both sides. However, inspectors at 7 of the
                                     10 establishments we visited were, in fact, viewing both sides of the animals
                                     during ante-mortem inspection. Our discussions with a representative of the
                                     World Organization for Animal Health, Office International des Epizooties
                                     (OIE),75 disclosed that while there are no specific guidelines for observing
                                     animals from both sides during ante-mortem inspection, OIE considers it
                                     preferable to view animals from both sides for a more complete examination
                                     in regards to clinical conditions that may be visible from only one side of the
                                     animal. We also consulted two independent experts, who believed that
                                     viewing both sides of an animal was important for identifying eye tumors,
                                     abscesses, open cuts or other wounds that might not be apparent at post-
                                     mortem.

Animals Not                          At four establishments, inspectors did not observe the animals individually.
Observed                             Instead, animals moved past the inspector concurrently in rows or groups of
Individually                         three to four animals deep, effectively obscuring the observation of potential
                                     injuries and abnormalities of each animal. Inspection personnel cited a
                                     variety of reasons for not observing the animals individually, such as lack of
                                     time or because they did not believe it was required. Although FSIS Directive
                                     6100.1 does not specifically require the individual inspection of each animal,
                                     FSIS training materials state that inspection personnel should direct the
                                     establishment to move all of the animals slowly and individually so
                                     inspection personnel can identify any abnormalities. We discussed this issue
                                     with experts in veterinary medicine, whose opinions were that in order to
                                     identify animal maladies during ante-mortem inspection, it is important that
                                     animals be viewed on an individual basis.




75
  OIE (also referred to as the World Organization for Animal Health) is an international animal health organization based in France that has developed the
Terrestrial Animal Health Code which contains guidelines for use by importing and exporting countries to avoid the transfer of agents pathogenic for
animals or humans, while avoiding unjustified sanitary barriers.
USDA/OIG-A/24601-0007-KC                                                                                                                      Page 32
Suspect Animals                      FSIS requires that animals exhibiting signs of disease during ante-mortem
Not Properly                         inspection be segregated for further examination by a PHV. Regulations
Identified or                        require that animals identified as ―U.S. Suspect‖ be identified with a serially
Segregated for                       numbered ear tag and be slaughtered separately from healthy animals.76
Slaughter
                                     At six establishments, however, we noted that inspectors did not properly use
                                     ear tags to identify suspect or condemned77 animals. The PHV at one
                                     establishment considered ear tags to be inhumane, while two others told us
                                     they visually tracked the animals. Two other PHVs used alternate systems
                                     that did not include ear tags,78 and one PHV did not feel they were necessary
                                     because he considered every animal ―suspect.‖ At four establishments,
                                     inspectors were not using the required FSIS Form 6150-1 to document
                                     animals designated as suspect; two of these were also not using Form
                                     6150-1 to document when animals became non-ambulatory in the chute. The
                                     FLSs were not aware FSIS procedures were not being followed; in at least
                                     one instance, however, the FLS was aware of the situation but allowed the
                                     PHV to continue this practice. Without proper tagging of suspect and
                                     condemned animals, there is reduced assurance that inspectors are properly
                                     identifying and tracking the animals through the inspection and slaughter
                                     processes.

                                     At two of these establishments, we also observed that suspect animals were
                                     not set apart and slaughtered separately from other healthy animals as
                                     required by regulations. At both establishments we identified issues with
                                     other aspects of the control systems designed to properly identify and control
                                     the movement of suspect animals. Inspectors at both establishments were not
                                     using ear tags to identify suspects, nor were they performing a reconciliation
                                     to slaughter records. The FLSs for these establishments stated they were not
                                     aware of these noncompliances because they had responsibility for more than
                                     one circuit and had not been able to spend significant time at any one
                                     establishment.

Non-                                 Information published by FSIS states that the PHV is either performing or
Veterinarians                        verifying ante-mortem inspection on every animal.79 However, this is not an
Have Performed                       FSIS requirement. In our visits to 10 cull cow slaughter establishments, we
Ante-Mortem                          observed that the PHVs at 7 establishments allowed the CSI and/or FI to
Inspection                           perform ante-mortem inspections on either a regular or occasional basis. We
Without Formal                       found that while the PHVs at these seven establishments always performed
Training or Direct                   follow-up examinations of animals the inspectors recommended be either
Supervision                          suspected or condemned, no such check was performed on animals that had
                                     been passed for slaughter. FSIS does not have a system in place to reliably

76
   Title 9 C.F.R., Part 309, Ante-Mortem Inspection (309.2(n) and 309.18 (a)), issued January 2008.
77
   Title 9 C.F.R 309.18(c) requires that animals classified as ―condemned‖ be identified with a serially numbered ear tag.
78
   At one establishment, the PHV attached the FSIS Form 6150-1 Identification Tag, directly to the pen card until the animal was slaughtered; after
slaughter, the tag was attached to the tongue. At another establishment, the PHV used a U.S. Retained Tag, in lieu of a suspect ear tag. Neither of these
methods complies with Directive 6100.1 and increase the risk that suspect carcasses may be misidentified at post-mortem inspection.
79
   BSE Rules Being Strictly Enforced, August 2005.
USDA/OIG-A/24601-0007-KC                                                                                                                     Page 33
                                        demonstrate that these non-veterinary employees have either the training or
                                        knowledge to perform ante-mortem inspections.

                                        FSIS procedures are not specific as to the level of supervision that a PHV
                                        should exercise over non-veterinarian inspectors during ante-mortem
                                        inspections. FSIS Headquarters officials stated that it is an acceptable
                                        practice to leave the determination as to who can conduct ante-mortem
                                        inspection to the individual PHV. They stated that non-veterinarians can be
                                        trained to identify signs that indicate an animal’s possible unfitness for
                                        slaughter. These signs are taught as part of FSIS’ Basic Livestock Slaughter
                                        Inspection training, which FSIS officials stated that they attempt to provide to
                                        all newly-hired food safety inspectors during their first year on the job.
                                        Further, the PHV is responsible for assuring that their subordinate inspectors
                                        are adequately trained to perform ante-mortem inspection. The PHVs we
                                        interviewed stated that as long as the inspector had proper on-the-job
                                        training, they did not have to be physically present when the inspector
                                        conducts ante-mortem inspection.

                                        Based on our observations, however, we question whether even a fully
                                        trained non-veterinary inspector can be expected to identify clinical signs that
                                        might warrant further examination. For example, the PHV at one
                                        establishment stated that cows with retained fetal membranes may have a
                                        metritis80 condition and should be designated as ―suspect‖ animals. This
                                        would require further examination by a PHV at both ante-mortem and post-
                                        mortem inspection. However, we observed that the CSI at this establishment
                                        passed three such animals for slaughter without further examination by the
                                        PHV. Discussions with FSIS personnel and a review of disposition guidelines
                                        revealed that a number of factors would have to be considered when
                                        determining whether to pass such an animal for slaughter. The guidelines
                                        provide for consideration of factors such as discharges, temperature, and
                                        other clinical signs. We question whether an inspector without veterinary
                                        training can make such determinations. At another establishment, the PHV
                                        allowed an entry-level FI, who had been on the job four months, to perform
                                        ante-mortem inspection without formal training. The on-the-job training was
                                        not documented but we were informed by the FI that his training
                                        encompassed ―hands-on observations and review of photographs.‖

                                        In addition, FSIS could not demonstrate that all of its employees who
                                        performed ante-mortem inspection had received the required formal training.
                                        Although all 18 CSIs at the 10 plants we visited had received formal training,
                                        this was not the case for 10 of the 25 FIs, at 2 of the 4 establishments81 where
                                        the PHVs assigned FIs ante-mortem inspection responsibilities. FSIS officials
                                        stated that formal training was of less importance in an employee’s
                                        development than on-the-job training provided by the PHV. However, there is
80
     Bacterial infection of the uterine tract.
81
     At the other 6 establishments of the 10 in our sample, the PHVs or CSIs performed all ante-mortem inspections.
USDA/OIG-A/24601-0007-KC                                                                                              Page 34
                    no evidence or system that documents either the type or extent of training
                    given to each employee by the PHV. Also, there is no structured training
                    program that documents and certifies that non-veterinary employees are being
                    trained in a consistent manner (See section 1 for a discussion on this
                    necessary organizational control).

                    Ante-mortem inspection is a critical part of FSIS’ overall system of controls
                    to prevent unfit animals from being slaughtered for human food. Adequate
                    controls must be established and implemented to ensure that ante-mortem
                    inspections: (1) are being performed on every animal that goes to slaughter;
                    (2) comply with the procedures required under FSIS directives; and (3) are
                    either performed by trained veterinarians, or by properly-trained inspectors.

Recommendation 9

                    Strengthen and clarify the requirements for in-plant inspection personnel to
                    assess the adequacy of each establishment’s animal identification system. In
                    addition, strengthen FSIS guidance requiring the use of ear tags to identify
                    suspected and condemned animals.

                    Agency Response

                    FSIS is writing a new notice pertaining to verification of an establishment’s
                    identification records and to reconciling livestock numbers between ante-
                    mortem and slaughter. The notice will clarify that the establishment is
                    responsible for providing livestock data to inspection program personnel
                    when requesting ante-mortem inspection. It will also explain that inspection
                    program personnel are to verify this data when performing ante-mortem
                    inspections, as well as the verification method to be used. In April 2009,
                    FSIS will revise and reissue FSIS Directive 6100.1 (Ante-Mortem Livestock
                    Inspection) to permanently capture the content of the new notice. The
                    directive will also provide clarified tagging instructions for livestock that is
                    determined to be U.S. Suspect or U.S. Condemned.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 10

                    Require inspectors to verify the accuracy of the animal counts on pen cards
                    and drive sheets, and reconcile these to establishment slaughter records.




USDA/OIG-A/24601-0007-KC                                                                   Page 35
                    Agency Response

                    FSIS is writing a new notice pertaining to verification of an establishment’s
                    identification records and the reconciliation of livestock numbers between
                    ante-mortem and slaughter. This notice will clarify that the establishment is
                    responsible for providing livestock data to inspection program personnel
                    when requesting ante-mortem inspection. The notice will explain that
                    inspection program personnel are to verify the establishment’s data when
                    performing ante-mortem inspection as well as the verification method to be
                    used. After livestock have passed this verification process during ante-
                    mortem inspection, they may be moved to slaughter. The notice is expected
                    to be issued in December 2008, and will be incorporated into Directive
                    6100.1 in April 2009.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 11

                    Strengthen existing guidance for inspectors to observe animals both at rest
                    and in motion during ante-mortem inspection.

                    Agency Response

                    FSIS will revise and reissue FSIS Directive 6100.1, Ante-Mortem Livestock
                    Inspection, to clarify that inspection program personnel are to observe
                    animals both at rest and in motion during ante-mortem inspection. The
                    revised directive is expected to be issued in April 2009.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 12

                    Implement controls to ensure that each non-veterinary inspector has received
                    necessary training, both formal and informal, before performing ante-mortem
                    inspections.

                    Agency Response

                    On September 10, 2008, FSIS implemented a structured on-the-job (OJT)
                    training program for all food inspectors and other non-veterinary inspectors
                    performing ante-mortem inspections. The new OJT program is one of six
                    modules contained in the 2008 Interim Employee Development Guide which
USDA/OIG-A/24601-0007-KC                                                                 Page 36
                    provides resources to supervisors and trainers to aid in their training efforts in
                    the first phase of a new inspector’s career. The module contains several topics
                    for which new inspectors must demonstrate basic proficiency, including
                    Sanitation and SSOPs, and ante-mortem and post-mortem inspection. The
                    module also includes forms which both the inspector and the
                    supervisor/trainer must initial when the inspector has attained basic
                    proficiency on each subject. The supervisor/trainer is required to add
                    comments on each form reflecting both the inspector’s strengths and
                    weaknesses, and include their plan for improving any deficiencies in
                    knowledge and/or execution. When all subjects in the module are completed,
                    the forms are to be submitted to the district office so that formal classroom
                    training can be scheduled.

                    Newly hired inspectors will be required to complete the classroom training in
                    a timely manner, within 1 year of entering on duty. FSIS will also require that
                    these inspectors recertify this training annually. To ensure that inspection
                    program personnel have received the necessary training, OFDER/DAIG will
                    conduct quarterly analyses of this training data and provide a report to the
                    Office of Outreach, Education, and Employee Training and to the districts so
                    that they can follow up on any instance where required training has not been
                    received. The first report that will include a status of inspection program
                    personnel who have received the structured OJT will be completed by
                    September 2009.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 13

                    Develop procedures to require PHVs to verify, at least on a periodic basis,
                    that non-veterinary inspectors perform ante-mortem inspections in
                    accordance with FSIS directives. Also, ensure that such observations are
                    documented.

                    Agency Response

                    FSIS officials stated that they have made improvements to the IPPS
                    Supervisory Guidelines that will result in better accountability for carrying
                    out ante-mortem and other inspection activities. The new guidelines will
                    contain explicit instructions for conducting IPPS assessments to test the
                    knowledge of in-plant inspection personnel on the policies and procedures for
                    which they are responsible, and to observe their performance of inspection
                    and verification procedures. The guideline will incorporate a ―work method‖
                    to ensure that supervisors ask the right questions and that they observe the
                    performance of the inspection personnel on every aspect of their jobs,
USDA/OIG-A/24601-0007-KC                                                                     Page 37
                                       including ante-mortem inspections. These observations are required to be
                                       documented on the IPPS report in AssuranceNet. If supervisors find deficient
                                       performance, they are to ensure that remedial action is taken such as
                                       correlation or re-training, and to perform a follow-up within 60 days. The
                                       revised IPPS Supervisory Guidelines are currently out in draft, and FSIS
                                       expects to issue them in December 2008.

                                       OIG Position

                                       We accept FSIS’ management decision.


Finding 4                              FSIS Needs to Strengthen Controls Over Secondary Entrances to
                                       Prevent the Potential Slaughter of Unfit Animals

                                       Eight of the 10 establishments we visited had usable, secondary access points
                                       (commonly called downer doors) to the establishments’ slaughter areas, of
                                       which only three were secured under FSIS lock. Such entrances could, if not
                                       adequately monitored by FSIS, facilitate the movement of non-ambulatory or
                                       uninspected animals to enter the slaughter areas without FSIS’ knowledge.
                                       Prior to 2004, establishments could use these special access areas to bring in
                                       animals for slaughter that were too weak to walk through the regular
                                       serpentine chutes to the stunning boxes. FSIS’ ban of the slaughter of non-
                                       ambulatory animals made these structural features either obsolete or else
                                       usable only in very limited circumstances. However, FSIS has no policy in
                                       place for determining how, or if, these areas should be controlled.82

                                       We also noted that 4 of 10 establishments had winches above the primary
                                       stunning box that were not under FSIS lock. These winches could be used to
                                       drag non-ambulatory cattle into the establishment.83 These secondary
                                       entrances and winches were generally not observable from FSIS’ online
                                       inspection stations, and could serve as routes into the slaughter areas that
                                       could potentially bypass FSIS inspection. The lack of adequate animal
                                       accountability systems (see Finding 3) further increases the risk that such
                                       entry points can be misused, if not properly controlled.

                                       In some instances, these doors and other facilities are needed as part of the
                                       slaughter process. For example, secondary stunning boxes might be used on
                                       healthy, ambulatory animals that cannot fit through the serpentine chute
                                       because of their size or other factors (e.g., longhorn cattle). However, controls
                                       should be put into place to ensure the establishment cannot easily move
                                       animals into the processing areas that potentially may not have passed
                                       inspection. FSIS has the authority to require that establishments only use

82
     At Hallmark, such a secondary access area was padlocked; we could not determine when this occurred.
83
     Two establishments had both an unsecured winch and an unsecured downer door.
USDA/OIG-A/24601-0007-KC                                                                                       Page 38
                                        facilities and equipment that are essential to inspections.84 FSIS can control
                                        secondary entrances and related work areas and equipment through the use of
                                        FSIS-controlled locks at all times when the doors or other facilities are not
                                        being used by the establishment.

                                        As a result of our reviews, FSIS inspectors at one of the cited establishments
                                        informed us that they would implement this practice and affix locks to the
                                        establishments’ secondary access door to ensure that they could only be used
                                        under FSIS supervision. We believe that FSIS needs to require that, at all
                                        establishments, these doors and other facilities be secured and maintained
                                        under FSIS control to ensure that they are used only under FSIS supervision.

Recommendation 14

                                        Require that secondary entrances to slaughter areas, stunning boxes, and
                                        winches not used as part of establishments’ normal slaughter operation be
                                        placed under FSIS control to ensure that they can be used only under the
                                        supervision of inspection personnel.

                                        Agency Response

                                        FSIS officials stated that the agency does not have statutory or regulatory
                                        authority to require that secondary entrances and equipment be placed under
                                        FSIS control. However, FSIS does recognize the need to ensure that these
                                        entrances and pieces of equipment are not used in violation of the statutes or
                                        regulations. By May 2009, FSIS will either issue a new FSIS notice or revise
                                        FSIS Directive 6900.1 Revision 1, ―Humane Handling of Disabled
                                        Livestock,‖ to clarify that inspection program personnel, through ongoing
                                        verification activities, are to ensure that secondary entrances and equipment
                                        are not used by official establishments to adulterate product, create unsanitary
                                        conditions, handle livestock inhumanely, or to violate the statutes or
                                        regulations in any other way. The issuance will instruct inspection program
                                        personnel to take regulatory control or other actions if official establishments
                                        misuse secondary entrances or equipment in such a manner.

                                        OIG Position

                                        We accept FSIS’ management decision.




84
     Title 9 C.F.R. 305.3 and Title 9 C.F.R. 307.2
USDA/OIG-A/24601-0007-KC                                                                                       Page 39
Finding 5                              Effectiveness of Inspector-Generated Residue Testing as Part of
                                       the Ante-Mortem Inspection Process Needs to Be Re-Assessed

                                      FSIS administers the National Residue Program (NRP) in cooperation with
                                      EPA and FDA to control veterinary drug, pesticide, and environmental
                                      contaminant residues in meat, poultry, and processed egg products. The NRP
                                      encompasses two domestic sampling programs. One, Scheduled Sampling,
                                      tests randomly-sampled cattle that exhibit no signs of illness to determine the
                                      exposure assessment or the prevalence of residues in the national food supply.
                                      The other, Inspector-Generated Sampling, involves a rapid, in-plant screening
                                      test called FAST (Fast Antimicrobial Screening Test) on any carcass that,
                                      based on herd history, ante-mortem, or post-mortem inspection findings, there
                                      is reason to believe may have an illegal drug residue.85 Cull cows, because of
                                      their age and general weakened health condition, have a higher risk for
                                      violative86 residues than fat cattle.

                                      FSIS publishes a Repeat Violator List as a means to assist in-plant inspectors
                                      in the identification of problem producers who repeatedly offer animals with
                                      violative residues for slaughter. If violative results occur, the PHV is to
                                      condemn the carcass and/or parts.

                                      At Hallmark, we identified concerns with the implementation of the NRP.
                                      Through interviews with inspection staff conducted during the on-going
                                      investigation, we determined that the process for sampling for residues was
                                      not being followed, nor were test samples properly controlled. We also found
                                      these same noncompliances at 6 of the 10 additional cull slaughter
                                      establishments visited. Although required procedures were not followed, we
                                      were able to confirm that carcasses and/or parts identified as violative by
                                      inspector-generated samples at these six establishments were properly
                                      condemned and disposed of.

                                      However, we did identify additional concerns with the design and
                                      implementation of the NRP that are outside the scope of this audit.
                                      Therefore, we will conduct a more in-depth review of the effectiveness of the
                                      NRP in a future audit effort.87 This report is limited to a review of the process
                                      for obtaining and testing inspector-generated samples, as well as the
                                      management controls associated with this segment of the NRP.




85
   FSIS Directive 10,800.1, dated July 12, 2007.
86
   FSIS uses guidance from FDA and EPA for residue monitoring and tolerance action levels.
87
   This review was begun as part of the current audit, and will continue following issuance of this report.
USDA/OIG-A/24601-0007-KC                                                                                      Page 40
Clearer Direction                    At 8 of the 10 establishments visited, inspection personnel (inspectors and
Is Needed for                        PHVs) did not use herd history to select animals for residue testing.88
Residue Testing                      Inspectors at two establishments relied solely on the establishment to inform
Based on Herd                        them when animals from a past violator arrived for slaughter. FSIS has not
History                              provided clear direction on how to use repeat violator information as a basis
                                     for testing, nor did we find any monitoring of compliance with this program
                                     by FSIS. PHVs told us that it is difficult and too time consuming to check the
                                     data on manual pen or drive cards for repeat violators. In addition, the farm
                                     source of the herd is not usually documented when cattle are purchased
                                     through an auction facility. As a result, there is reduced assurance that meat
                                     products have been sufficiently tested for violative levels of residues from
                                     those producers determined to be most at risk.

FSIS Cannot                          FSIS has not developed a process to monitor FAST test results, either to
Effectively                          identify issues that need corrective action or to determine how the testing
Monitor Residue                      program itself might be improved. district officials do not have access to
Test Results                         FAST test data in a usable format to facilitate oversight of the NRP.

                                     For recordkeeping purposes, FSIS in-plant inspection personnel record the
                                     results of each sample test (whether positive or negative) on the 3-part FAST
                                     Worksheet. Once the worksheet (which has space for test results from
                                     25 samples) is completed, the original is sent to the FSIS Financial
                                     Processing Center and a copy to the district office. The Financial Processing
                                     Center enters the information from the FAST Worksheet into a database,
                                     which is transmitted to FSIS Headquarters. We found, however, that this data
                                     may not always be complete. Staff at the Financial Processing Center stated
                                     that data from the FAST Worksheets are not entered when: (1) the
                                     establishment identification number is not included; (2) the data are not
                                     readable; or (3) the information is from the prior fiscal period. We found no
                                     evidence that followup was made to obtain clarification on the data reported.

                                     The automated FAST test residue information is not shared with district
                                     offices, nor are all district officials even aware of its existence. An official
                                     with the FSIS Office of the Chief Information Officer (OCIO), which
                                     receives the data in Headquarters, stated that while their offices can run
                                     reports for the districts from the database upon request, there is no process in
                                     place to distribute it to the district offices on a recurring basis. We found
                                     three instances in which district offices were manually entering FAST test
                                     data into their own databases. One district, for instance, was attempting to use
                                     the data in conjunction with Electronic Animal Disposition Reporting System
                                     (eADRS) to determine what pathologies indicated a greater need for residue
                                     testing; another was attempting to assess the overall effectiveness of the
                                     agency’s residue testing. In interviews, officials at one district stated that they
                                     were not aware that this data already existed in electronic format. Officials at
88
  FSIS Directives 10.800.1 and 10.220.3 state that herd history and prior residue violations are two of many factors that PHVs can take into consideration
when selecting animals for in-plant testing.
USDA/OIG-A/24601-0007-KC                                                                                                                      Page 41
                                         another, however, stated that they had attempted to obtain the data from
                                         FSIS’ Financial Processing Center but were not given access. We believe that
                                         to efficiently utilize this information, FSIS needs to implement an ongoing
                                         process to analyze FAST test results to monitor trends and to identify the
                                         need for enforcement action.

                                        We also noted that because there are insufficient guidelines as to the extent of
                                        FAST testing a PHV in any given establishment should perform, the levels of
                                        testing varied greatly between even similar establishments. For example, we
                                        reviewed FAST test information maintained by the PHVs at two of our
                                        sampled establishments that had very similar operations and found significant
                                        variations in their testing programs. Establishment 1 and 6 received most of
                                        their cattle for slaughter from the same sources, and slaughtered 648,364 and
                                        712,040 head of cattle, respectively, between January 2006 and April 2008.
                                        However, Establishment 1 performed 1,607 FAST tests and found
                                        25 violations while Establishment 6 performed at least 41,837 FAST tests
                                        with 550 violations. In contrast to both of these, Establishment 10 performed
                                        no FAST tests at all for a period of more than 1 year, a fact that was not noted
                                        by the district office.

                                        The analysis of FAST results can provide a basis for monitoring and verifying
                                        the effectiveness of residue testing performed by individual establishments.
                                        Without such analyses by the district offices or higher management levels,
                                        there is reduced assurance that the inspector-generated testing programs are
                                        being carried out in the most effective manner; or, as in the case of
                                        Establishment 10, are being carried out at all.

Inspectors Did                          At six establishments (see exhibit B), inspectors did not adequately maintain
Not Follow                              custody of test samples. At four establishments, inspectors allowed
Custody                                 establishment staff to obtain FSIS samples from carcasses or the associated
Requirements for                        viscera.89 For example, at one establishment we observed establishment staff
Test Samples                            collecting tissues, placing the tissues and a USDA retain tag in clear plastic
                                        bags, inserting a swab into the kidney, tying the sample bags together, and
                                        placing the sample bags into a bucket located at an FSIS station. At three
                                        establishments, inspection personnel left test samples unsecured. For
                                        example, at one establishment, kidney and liver samples were placed on
                                        trays, tagged, and placed into a cooler that was not locked or under FSIS
                                        control. The inspectors stated that samples are often kept in the cooler
                                        overnight for testing the following day. Establishment staff has access to the
                                        cooler, and could easily tamper with, or switch, the samples. The district
                                        manager agreed that the samples should have been better safeguarded, and
                                        stated that they would need to discuss this issue at the district level.



89
     Viscera are the internal organs of an animal.
USDA/OIG-A/24601-0007-KC                                                                                       Page 42
                                      FSIS directives state that agency personnel are to collect tissue samples from
                                      slaughtered animals for residue testing and maintain adequate security over
                                      them until they can be shipped to the laboratory. The directive requires that
                                      inspection program personnel collect tissue samples every time there is
                                      reason to suspect that a violative residue is present.90

                                      FSIS requirements for securing test samples are clear, and FSIS needs to
                                      monitor compliance with these requirements. However, the requirements for
                                      collecting samples were less clear and could be misinterpreted. We believe
                                      these need to be clarified to prevent the use of non-FSIS personnel to perform
                                      this function.

Recommendation 15

                                      Develop specific guidance and procedures for in-plant FSIS personnel to use
                                      herd history as a basis for performing residue tests.

                                      Agency Response

                                      FSIS receives a weekly report from USDA’s National Information
                                      Technology Center that identifies establishments that have purchased, on
                                      more than one occasion, animals from the same supplier that have violative
                                      residues as confirmed by FSIS laboratories. Currently, upon receipt of this
                                      report, FSIS Headquarters notifies the district offices about these
                                      establishments through the shared Outlook residue mailbox files. By
                                      December 2008, FSIS will issue a notice instructing the district offices to
                                      inform all IICs (and their FLSs) at establishments known to have purchased
                                      livestock from repeat violators about new violations involving the violating
                                      firms. The notice will advise inspection program personnel about their
                                      responsibilities when they are informed that an establishment has repeatedly
                                      purchased animals from the same supplier with violative levels of residues.
                                      The notice will also give instructions to PHVs regarding additional residue
                                      sampling if an establishment continues to purchase livestock from these
                                      suppliers.

                                      OIG Position

                                      We accept FSIS’ management decision.

Recommendation 16

                                      Develop a process that provides on-going monitoring and analysis of
                                      inspector-generated residue sampling. Initiate follow-up actions when there
                                      are variances in inspector performance and/or residue test results.
90
     FSIS Directive 10,800.1, ―Procedures for Residue Sampling, Testing, and Other Responsibilities for the National Residue Program,‖ dated July 12,
     2007, and FSIS Directive 7335.1, ―Use of Sample Seals for Laboratory Samples and Other Applications,‖ Revision 2, dated December 3, 2002.
USDA/OIG-A/24601-0007-KC                                                                                                                 Page 43
                    Agency Response

                    FSIS will implement the eSample system by June 2009 which, among other
                    things, will be used to collect FAST or other rapid test results used in
                    inspector generated sampling. The eSample database will eliminate any duties
                    that FSIS’ Office of Management currently has related to the collection of
                    these test results at the Federal Processing Center in Urbandale, IA.

                    The Office of Public Health and Science (OPHS) Residue Branch will
                    analyze data from eSample and the eADRS to include production volumes
                    (number of head slaughtered), number of in-plant screening tests conducted
                    and test results, both positive and negative, for each establishment on a
                    quarterly basis. OPHS has identified and will implement the following
                    parameters as part of this process: 1) select and monitor in-plant screening
                    tests with acceptable sensitivity and low specificity (close to tolerance and
                    low numbers of ―false‖ positives); 2) improve inspector generated sampling
                    criteria; and 3) establish uniform in-plant sampling between establishments.
                    The estimated completion date for the first analysis is August 2009. Once the
                    data are analyzed, OPHS will provide OFO and other FSIS program
                    managers with a report indicating any discrepancies in in-plant screening
                    testing procedures so that appropriate action can be taken.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 17

                    Clarify the written requirements for the collection of test samples. In addition,
                    strengthen monitoring to ensure that inspectors properly safeguard samples
                    against possible tampering.




USDA/OIG-A/24601-0007-KC                                                                    Page 44
                   Agency Response

                   FSIS has selected a new in-plant residue test screening method to be used by
                   inspectors in all slaughter establishments. By April 2009, FSIS will draft a
                   directive to provide instructions to field personnel regarding comprehensive
                   criteria for performing in-plant residue screen tests (herd history, current
                   health of animal presented for inspection, etc.). The directive will also
                   provide directions on how to collect and submit samples to ensure sample
                   integrity and how to secure samples onsite prior to their submission to the
                   FSIS laboratories. To further ensure that inspectors are fully aware of the
                   protocol for shipping samples, FSIS will link the new directive to the current
                   FSIS Directive 7355.1, Revision 2, ―Use of Sample Seals for Laboratory
                   Samples and Other Applications.‖

                   OIG Position

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-0007-KC                                                                 Page 45
Section 3. Specified Risk Materials

                                      To mitigate public concerns that downer cattle from Hallmark or other
                                      slaughter establishments can enter the food supply, FSIS cited four
                                      interlocking safeguards that would protect the public health even if other
                                      controls to prevent unfit animals from being slaughtered should fail. These
                                      are the feed ban,91 BSE surveillance testing, the prohibition of non-
                                      ambulatory or disabled ―downer‖ animals from the food supply, and the
                                      removal of Specified Risk Materials (SRMs) from cattle at the time of
                                      slaughter. USDA requires the removal of SRMs because these tissues have
                                      been identified as vectors for BSE. Beef slaughter and processing facilities
                                      are required to incorporate controls for handling such materials into their
                                      food safety systems.92 FSIS provided interim guidance for controlling SRMs
                                      in January 2004, and published a final SRM rule on July 13, 2007. In addition
                                      to affirming the interim rule, the final rule added regulations for monitoring
                                      the removal of SRMs by downstream processors.93

                                      Under these requirements, establishments must remove specified parts such
                                      as tonsils and distal ileum from the carcass of each animal.94 Establishments
                                      must also have procedures in place to ensure that carcasses of younger
                                      animals are not cross-contaminated with SRMs from older animals, and also
                                      to ensure that unused parts containing SRMs are destroyed or denatured to
                                      prevent their possible re-use. Because of the importance which USDA places
                                      on the SRM removal process, and because cull establishments such as
                                      Hallmark predominately slaughter older animals (over 30 months old) for
                                      which SRM removal is most critical, we reviewed the effectiveness of FSIS’
                                      controls over SRM removal at the 10 establishments we visited.

                                      During our establishment visits, we observed FSIS’ methods of providing
                                      oversight of the SRM removal process and verified that FSIS inspectors
                                      were, in fact, observing the removal of SRMs from each carcass that passed
                                      through the slaughter process. However, we noted several areas where we
                                      believe FSIS can strengthen its management controls to ensure adequate
                                      oversight and enforcement of SRM requirements. These areas are described
                                      below.




91
   The Food and Drug Administration has primary responsibility for preventing the introduction of BSE from animal feed.
92
   SRM controls can be incorporated in either HACCP, SSOP, or pre-requisite plans.
93
   An establishment that does not slaughter, but receives carcasses from a slaughter establishment for further processing.
94
   For animals over 30 months of age, additional parts are classified as SRMs. These include the brain, eyes, and vertebral column.
USDA/OIG-A/24601-0007-KC                                                                                                              Page 46
Finding 6                         FSIS Needs To Strengthen Its Monitoring of the Effectiveness of
                                  SRM Intervention Procedures

                                  In recent years, FSIS has made significant strides in the development of
                                  management control processes to accumulate and analyze food safety data
                                  and to strengthen the agency’s monitoring of food safety activities. However,
                                  despite the level of importance that agency officials attribute to removing
                                  SRMs from the food supply and in preventing the contamination of edible
                                  carcasses and parts, FSIS’ management control systems provide little
                                  information for oversight of these activities. We found that neither PBIS,
                                  AssuranceNet, nor IPPS are currently designed to provide managers at the
                                  Headquarters and district office levels with data to detect trends of
                                  noncompliance or to identify areas where more in-plant oversight is needed.
                                  In addition, we noted that managers are not always using all available data as
                                  part of their monitoring efforts. As a result, FSIS cannot effectively
                                  demonstrate that its verification of establishment controls and written
                                  procedures for the removal, segregation, and disposition of SRMs is adequate
                                  to detect noncompliance.

                                  FSIS’ overall management control structure depends upon several key
                                  systems to provide managers with information to monitor the performance of
                                  food safety operations in slaughter establishments. These systems include:

                                       PBIS, which assigns inspection tasks in support of HACCP, and which
                                       records both the performance of those tasks and the extent of
                                       noncompliance at each establishment;
                                       IPPS, which provides a framework and guidelines for supervisors to use
                                       in evaluating the performance of non-supervisory employees; and
                                       AssuranceNet, which uses data from PBIS, IPPS, and other sources to
                                       track and monitor the performance of FSIS inspectors in several key
                                       functional areas.

                                  OIG identified the need for FSIS to strengthen these management control
                                  systems in several prior audits.95 We also raised concerns relating to the
                                  monitoring and control of SRMs in an audit issued in January 2006.96
                                  Although FSIS has implemented corrective actions in response to our
                                  recommendations, we found that additional actions are needed as described
                                  below.


95
   These audits include 24601-3-Ch, Use of Information Technology Systems, issued in September 2004; 24601-6-Ch, In-Plant Performance Systems,
issued in March 2006; and 24601-7-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments,
issued in December 2007.
96
   Report 50601-10-KC, Bovine Spongiform Encephalopathy (BSE) Surveillance Program – Phase II and Food Safety and Inspection Service Controls
Over BSE Sampling, Specified Risk Materials, and Advance Meat Recovery Products – Phase III, dated January 2006.
USDA/OIG-A/24601-0007-KC                                                                                                           Page 47
PBIS Does Not                       The inspection tasks conducted by FSIS inspectors are partly assigned by
Contain Specific                    PBIS. PBIS creates a list of tasks each morning that direct the inspectors to
SRM Inspection                      review different aspects of an establishment’s operation. The system has
Tasks                               codes that may include SRM handling procedures and practices, but nothing
                                    that specifically directs the inspectors to examine them. Instead, an inspector
                                    can choose to examine another part of the establishment’s operation that falls
                                    within the general inspection task category. We previously reported97 that
                                    because of the lack of any specific PBIS tasks relating to SRMs, and because
                                    all of the establishments we reviewed elected to incorporate their SRM
                                    procedures into pre-requisite plans98 rather than into HACCP, we could not
                                    determine the extent to which this area was being monitored or evaluate the
                                    effectiveness of FSIS’ controls over SRM removal.

                                    In our previous audit,97 we recommended that FSIS establish specific tasks
                                    within PBIS to verify SRM control procedures. FSIS proposed, and OIG
                                    accepted, an alternative action to facilitate more comprehensive searches of
                                    PBIS data through the use of dropdown menus (see next topic).

                                    In our current audit, 8 of the 10 cull slaughter establishments we visited
                                    elected to place their SRM control procedures in pre-requisite plans.
                                    Inspectors at the establishments we visited stated that they performed the
                                    necessary SRM procedures, but could not provide documentation of what was
                                    done. Although we did not observe any SRMs entering the food supply, FSIS
                                    officials cannot demonstrate that the level of its inspection efforts for SRMs
                                    is adequate.

FSIS’ Ability to                    In response to our previous audit,97 FSIS enhanced PBIS by adding a
Review and                          dropdown menu of keywords and regulatory citations. The dropdown menu
Analyze SRM                         allows inspection personnel to select from a list of regulatory citations and
Noncompliance                       choose the appropriate provisions to describe the types of noncompliance that
Records                             could be found while performing a given PBIS verification procedure.
Continues To Be                     However, work performed as part of a more recent OIG audit99 disclosed that
Limited                             over 50 percent of the SRM-related NRs did not cite the appropriate
                                    provisions of Title 9 C.F.R. 310.22 that would allow noncompliances to be
                                    readily identified by reviewers, such as by Executive Assistants for
                                    Regulatory Operations (EARO)100 or district analysts. We found, during this
                                    audit, that while most inspection personnel were aware of the dropdown
                                    menu, many stated they did not use it when documenting SRM
                                    noncompliances because they lacked knowledge and experience in dealing
                                    with this particular type of noncompliance.

97
    Report 50601-10-KC, Bovine Spongiform Encephalopathy (BSE) Surveillance Program – Phase II and Food Safety and Inspection Service Controls
Over BSE Sampling, Specified Risk Materials, and Advance Meat Recovery Products – Phase III, dated January 2006.
98
    Pre-requisite programs are practices and conditions needed prior to and during the implementation of HACCP. They are often facility-wide programs
rather than process or product-specific.
99
    Report 24601-07-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments, dated December
2007.
100
    The EAROs are the next level of management above the district level. Each district manager reports to one of the three EAROs.
USDA/OIG-A/24601-0007-KC                                                                                                                 Page 48
                                    District officials we interviewed during the current audit stated that although
                                    they are able to access NRs through PBIS, their ability to analyze them is
                                    limited.101 In some cases, district officials stated that they did not know how
                                    to perform keyword searches; others cited the difficulty in searching technical
                                    terms that may be spelled in various ways by in-plant inspectors in the NR
                                    narratives.102 This limitation, combined with the lack of regulatory citations
                                    on the NRs themselves, make it difficult to identify which NRs are SRM-
                                    related without a lengthy manual review. All of the officials we interviewed
                                    stated that they were not performing such reviews.

                                    FSIS has not enhanced PBIS to facilitate the monitoring of SRM control
                                    compliance due to the current focus on developing the replacement PHIS
                                    system. However, without some type of district-level monitoring of SRM-
                                    related NRs, district managers and other officials cannot determine whether
                                    in-plant inspection staffs are adequately monitoring and enforcing SRM
                                    requirements. When implementing PHIS, FSIS officials need to ensure that
                                    NRs for SRMs can be readily accessed and analyzed by managers in the same
                                    manner that NRs for other types of violations presently can be.

                                    We also noted that FSIS inspectors at the establishments we visited were not
                                    always writing NRs, even when they observed violations. This problem, if not
                                    corrected, can also limit managers’ awareness of the true extent these
                                    violations are occurring. This condition is discussed in Finding 7.

Managers Are                        Although the district offices reviewed were not performing analyses of SRM-
Not Using                           related NRs, the Office of Food Defense and Emergency Response
Available Data                      (OFDER)103 was performing such analyses on a monthly basis and compiling
                                    this data into a monthly SRM Noncompliance Report. Because of the system
                                    limitations previously noted, OFDER officials stated that a significant manual
                                    review effort is needed to produce these reports. For example, use of keyword
                                    searches allowed FSIS to identify about 240 NRs that appeared to be SRM-
                                    related out of a total of 7,800 NRs written in December 2007. However, each
                                    of the 240 had to be read manually to identify the 23 NRs that, in OFDER’s
                                    assessment, actually represented SRM noncompliances.

                                    We reviewed the SRM Noncompliance Reports from January 2007 forward,
                                    and found that they contained valuable information that could have been used
                                    for monitoring at the district level. For example, one report showed that in
                                    March 2008, FSIS issued 55 SRM-related NRs compared to only 35 in the
                                    previous month. This report also identified the fact that 51 percent of the NRs

101
   One difficulty in performing keyword searches for SRM-related NRs – as noted by the Office of Food Defense and Emergency Response – is the
probability that technical terms such as distal ileum and dorsal-root ganglia can be misspelled by those who enter the NRs.
102
   For example, when performing keyword searches, OFDER uses 75 different keywords that represent known misspellings of technical terms.
103
    This office, created in 2002, coordinates and manages all homeland security activities within FSIS. Its function is to ensure that policy makers,
scientists, field staff, and management are prepared to prevent and respond to any food security threat.
USDA/OIG-A/24601-0007-KC                                                                                                                 Page 49
                                    (28 of 55) related to deficiencies in establishments’ HACCP systems. It
                                    would be reasonable to conclude that had this information been disseminated
                                    to the districts, district managers could have increased monitoring of
                                    establishments’ systems relevant to the removal and control of SRMs.

                                    However, district managers are not provided these reports. Instead, under the
                                    policy of the Office of Field Operations, these reports are reviewed by the
                                    EAROs. We interviewed two of the three EAROs, and were told that they do
                                    not review these reports. One stated that they are waiting for the development
                                    of PHIS, since the new system is expected to generate reports and perform
                                    trend analysis.

Management                          As noted in Finding 2, much of FSIS’ efforts in the area of management
Control Systems                     controls have been directed to the development of AssuranceNet and IPPS.
Are Not Designed                    Both of these systems were referenced in FSIS’ response to OIG’s most
to Monitor SRM                      recent audit that reported SRM issues.104 FSIS, in its response to that audit,
Compliance                          stated that its multi-layered management control system (AssuranceNet)
                                    would address SRM controls in its performance measures for HACCP
                                    procedures and control of condemned and inedible material. FSIS stated that
                                    these performance measures would be integrated with system design control
                                    functions via Food Safety Assessments (FSA)105 and IPPS. We agree that
                                    both AssuranceNet and IPPS provide some information in this area. However,
                                    neither provides distinct data on inspectors’ performance in SRM verification
                                    activities for managers to assess on a district or nationwide basis.

                                    The Supervisory Guide for IPPS references validation of SRM controls, in
                                    that it instructs the FLS to determine the PHV’s knowledge of how each
                                    establishment is controlling SRMs. However, we found that the IPPS rating
                                    forms for PHVs, CSIs, and FIs do not contain any performance element
                                    specifically related to SRM verification activities. As a result, reviewing
                                    officials such as district managers or EAROs cannot determine how, or
                                    whether, a supervisor has addressed an employee’s performance in this area,
                                    as required for other performance elements.

                                    We also noted that AssuranceNet, which FSIS officials use to monitor
                                    performance in various food safety areas, does not contain any performance
                                    elements specifically related to SRM verification activities. In January 2006,
                                    before the system was implemented, FSIS stated that AssuranceNet would
                                    include ―performance measures for HACCP procedures and control of
                                    condemned and inedible material that would encompass verification of an
                                    establishment’s control of SRMs.‖ We found that AssuranceNet does monitor
                                    completion of certain PBIS tasks, as well as an element that monitors whether

104
    Report 50601-10-KC, Bovine Spongiform Encephalopathy (BSE) Surveillance Program – Phase II and Food Safety and Inspection Service Controls
Over BSE Sampling, Specified Risk Materials, and Advance Meat Recovery Products – Phase III, dated January 2006.
105
    FSAs are FSIS district-level reviews to assess the design and validity of an establishment’s HACCP plan, SSOPs, and pre-requisite plans. They are
generally conducted by an EIAO.
USDA/OIG-A/24601-0007-KC                                                                                                                 Page 50
                    ―100 percent of condemned animals and inedible product (are) identified and
                    properly disposed of.‖ However, these elements encompass a much broader
                    range of activities than SRM removals, and do not provide any specific
                    information on the effectiveness of SRM removals and interventions. This is
                    particularly true since AssuranceNet is primarily designed to monitor trends
                    at the circuit level and higher, rather than at individual establishments.

                    Given the importance placed upon SRM removal and intervention as a means
                    of protecting the public even in instances where other FSIS controls may fail
                    - as at Hallmark - FSIS needs to demonstrate that it provides an appropriate
                    level of monitoring through the agency’s management control systems. We
                    have been advised that this may partly be addressed by the new PHIS system
                    when it becomes operational. However, managers will still need to have
                    sufficient data to ensure that tasks necessary to verify SRM controls and
                    interventions are being accomplished as intended.

Recommendation 18

                    Develop processes, as part of the new PHIS system, to verify that inspectors
                    are regularly performing SRM-related tasks as part of their inspection duties.
                    Incorporate features in PHIS that will allow managers to track and evaluate
                    the extent to which such tasks are being performed at the establishment,
                    circuit, and district levels.

                    Agency Response

                    The PHIS, currently being developed, will have features that require
                    inspection personnel to record which specific regulatory requirements are
                    verified each time they are performed, even if noncompliance is not found.
                    For example, when inspection personnel perform HACCP verifications at
                    beef plants and verify that establishments handle SRMs in accordance with
                    their plans and regulatory requirements, the regulatory requirements that
                    inspection personnel verified will be recorded in the PHIS database. The data
                    will be available to OFO supervisory personnel for them to track to ensure
                    that inspectors are performing such verifications at the specified frequencies.
                    PHIS policy and training will include guidelines for monitoring SRM
                    verification and for responding to apparent anomalies. As PHIS is developed,
                    the system of management controls will be restructured to allow managers at
                    all OFO levels to track whether tasks are performed and that the appropriate
                    regulatory requirements are verified as required. This feature will apply to all
                    regulatory requirements, not only those related to SRMs. PHIS will be in full
                    production readiness by March 2010.




USDA/OIG-A/24601-0007-KC                                                                   Page 51
                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 19

                    Implement procedures for district offices to monitor and analyze SRM-related
                    NRs as part of the agency’s overall management control process. Provide
                    district-level users access to all information, including OFDER’s monthly
                    exception reports.

                    Agency Response

                    FSIS will modify PBIS by adding a drop down menu that will provide the
                    districts with a tool to sort and search all NRs by regulatory citations. This
                    will enable them to monitor and analyze specific SRM-related NRs. This
                    proposed PBIS modification is an interim measure pending PHIS
                    implementation. In addition, OFDER/DAIG prepares quarterly exception
                    reports that are distributed to Office of Policy, Program and Employee
                    Development (OPPD) and OFO. The EAROs will share these reports with
                    each corresponding district. Information contained in these reports will
                    provide each district with data for correlation purposes, and they can further
                    use such information and data to follow up on particular issues of concern.
                    FSIS will provide the districts with guidance in the form of an FSIS directive
                    or notice that will explain how and what to do with both the PBIS data and
                    OFDER’s report to monitor and analyze SRM-related NRs as part of the
                    agency’s overall management control process. The modifications to PBIS will
                    be made and the FSIS directive or notice will be published by March 2009.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 20

                    Add specific fields to both AssuranceNet and IPPS for SRM-related activities
                    and develop processes to ensure that these are adequately monitored both at
                    the district and Headquarters levels.

                    Agency Response

                    FSIS believes that general performance elements and measures are the most
                    effective approach to ensure that inspection personnel understand the broad
                    concepts and thought processes they are to use in performing their
                    verification activities, regardless of the pathogen or adulterant in question.
                    However, agency officials agreed that FSIS should provide specific guidance
USDA/OIG-A/24601-0007-KC                                                                  Page 52
                   to supervisors on how to assess employees’ knowledge and performance of
                   those verification activities with reference to specific hazards, like SRMs or
                   E. coli O157:H7, as they apply to the inspector’s assignment. The revised
                   IPPS Supervisory Guidelines will provide specific instructions to supervisors
                   for determining the knowledge and proficiency of their inspection personnel
                   on various aspects of their jobs. The sections dealing with HACCP
                   verifications, SSOP verifications, and pre-requisite program verifications
                   specifically direct the supervisor on how to assess the employee’s knowledge
                   and proficiency in carrying out verifications of SRM control activities. This is
                   expected to facilitate supervisors in assessing the performance of in-plant
                   inspection personnel in their verification of SRM controls, as well as other
                   performance areas.

                   PHIS will have features that require inspection personnel to record which
                   specific regulatory requirements are verified each time they are performed,
                   even if noncompliance is not found. This data will be available to OFO
                   supervisory personnel for them to track and ensure that inspectors are
                   performing such verifications at the specified frequencies. PHIS policy and
                   training will include guidelines for monitoring SRM verification frequencies
                   and for responding to variations in frequency. As PHIS is developed, the
                   system of management controls will be restructured to allow managers at all
                   OFO levels to track the performance of tasks and to assure that the
                   appropriate regulatory requirements are verified as required. These features
                   will apply to all regulatory requirements, not just SRMs. PHIS will be in full
                   production readiness by March 2010.

                   OIG Position

                   We accept FSIS’ management decision.


Finding 7          FSIS Inspectors Did Not Always                    Detect     or    Document
                   Noncompliance With SRM Regulations

                   Inspectors at 5 of the 10 establishments we reviewed did not detect instances
                   of noncompliance with FSIS requirements for the removal and disposition of
                   SRMs (see exhibit C). The deficiencies we noted included establishment pre-
                   requisite plans that did not contain required SRM procedures, and the failure
                   of establishment employees to follow in-plant intervention procedures or to
                   ensure that SRMs were being removed from products shipped to other
                   processing establishments. This occurred, in part, because FSIS inspectors
                   misinterpreted applicable regulations and directives. In some cases, we noted
                   that FSIS inspectors had not received up-to-date training on SRM
                   requirements. Finally, we noted that inspectors at three of these
                   establishments were reluctant to write NRs even after the noncompliances
                   had been noted by the auditors. If FSIS in-plant inspectors do not detect such
USDA/OIG-A/24601-0007-KC                                                                  Page 53
                                   noncompliances, or do not document them with NRs, the ability of FSIS to
                                   demonstrate the effectiveness of SRM removal and intervention processes is
                                   greatly reduced.

FSIS Did Not                       In August 2007, FSIS issued a notice that directed inspection personnel at
Always Ensure                      slaughter establishments to conduct awareness meetings with establishment
That                               management.106 These meetings were to (1) make establishment managers
Establishments                     aware of changes to regulatory requirements for handling SRMs, (2) advise
Adequately                         management that because changes might affect the establishment hazard
Reassessed                         analysis or alter the critical control points they should reassess the adequacy
Their HACCP                        of their HACCP plan, and (3) ask them specific questions that their controls
System for SRM                     and procedures would be expected to address. Beginning October 1, 2007,
Control                            inspectors were to use FSIS Directive 6100.4, Verification Instructions
                                   Related to SRMs to verify that the establishment’s plans had incorporated the
                                   appropriate controls and procedures.

                                   However, at two establishments, we found that the pre-requisite plans did not
                                   address the requirements of 9 CFR 310.22 and Directive 6100.4, which state
                                   that any slaughter establishment which ships carcasses containing SRMs to
                                   ―downstream‖ processing establishments must (1) assure that the carcasses
                                   are accompanied by documentation stating that the SRMs must be removed,
                                   and (2) maintain documentation to show that the downstream establishment
                                   has received the carcasses and has certified to the subsequent removal and
                                   disposition of the SRMs. In both of these cases, FSIS personnel had
                                   documentation that the awareness meetings had been held as required by
                                   Notice 56-07. However, in one case the PHV misinterpreted the directive’s
                                   requirements, stating that he believed it sufficient that the processing
                                   establishment’s own SRM plan required their removal. In the other case, the
                                   inspectors stated they understood the requirement but had failed to notice that
                                   the pre-requisite plan did not contain the required controls. In both cases, the
                                   PHVs had received training on SRMs; however, this training took place
                                   before the training modules were updated to reflect the requirements for
                                   shipments to downstream processors.

                                   At one of these two establishments, an FSA conducted in April 2008 also
                                   failed to disclose that the establishment’s pre-requisite plan did not address
                                   the requirements for transporting carcasses containing SRMs. The district
                                   manager stated that because of the way FSA reports are formatted,107 the
                                   district officials who reviewed the report could not determine the extent to
                                   which SRM procedures had been covered. She noted that the FSA did not
                                   concentrate on SRM-related issues, but rather on HACCP compliance in
                                   general.


106
  FSIS Notice 56-07, Final Regulations for Non-Ambulatory Disabled Cattle and SRMs, dated August 31, 2007.
107
   We reported this in audit 24601-7-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Establishments. Until July
2008, FSAs were presented in an inconsistent, text-based format that did not allow FSIS managers to fully analyze the results of the FSAs.
USDA/OIG-A/24601-0007-KC                                                                                                             Page 54
One                                At one establishment we visited, an investigation by FSIS OPEER disclosed
Establishment                      that the establishment had not been properly removing the tonsils from
Did Not Properly                   market heads that it began shipping in 2003. Establishment personnel stated
Carry Out SRM                      that at that time, the PHV instructed them in the method for tonsil removal.
Removal                            They continued using that method until a State inspector in Iowa discovered
                                   tonsil material during a routine inspection of cattle heads shipped by the
                                   establishment in 2008. Continuous review by FSIS inspection personnel
                                   during the previous 4 years, however, failed to identify this deficiency. The
                                   establishment issued a voluntary recall of over 400,000 pounds of product -
                                   about half of the cattle heads it shipped since 2003. Because the PHV who
                                   initially instructed establishment employees in tonsil removal was no longer
                                   with the agency, we could not validate that incorrect instructions were given
                                   to the establishment. The current PHV and FLS stated that they had not
                                   monitored tonsil removal sufficiently to have discovered that the
                                   establishment failed to remove all SRMs. We noted that both the CSI and the
                                   FLS received training in SRM tonsil removal after this noncompliance at this
                                   establishment had been disclosed.

Establishments                     Title 9 C.F.R. 310.22 and FSIS Directive 6100.4 require that precautions be
Did Not Use                        taken when establishments slaughter cattle of mixed ages (over-and-under
Dedicated or                       30 months of age) to prevent cross-contamination by SRMs. If establishments
Properly-Cleaned                   do not segregate the carcasses and parts from the older and younger cattle,
Equipment When                     FSIS inspectors are required to verify that the establishment is either using
Cutting Products                   dedicated equipment for each age group to cut through the SRMs, or cleaning
That Contained                     and sanitizing the equipment before it is again used on carcasses or parts from
SRMs                               cattle under 30 months old. However, at two establishments we found that
                                   these requirements were not being followed.

                                   Establishment 1’s pre-requisite plan called for cattle, following the initial
                                   splitting of the carcass in the slaughter area,108 to be processed in order of
                                   their age with all cattle under 30 months of age being processed on any given
                                   day before any of the over-30-month cattle. Under this plan, it would have
                                   been unnecessary to either use dedicated equipment or to break down and
                                   clean the saws and other equipment until the next day’s slaughter operations
                                   began. However, we found that by the time the carcasses reached the
                                   processing area, they had been graded by USDA Agriculture Marketing
                                   Service; and from that point forward, the establishment first grouped the
                                   carcasses by USDA grade (e.g., USDA Prime, Choice, or Select) for further
                                   processing, and only then by age. Under this system, an over-30-month old
                                   carcass of one grade would be sawed before an under-30-month carcass in the
                                   next grade-grouping. Because it was not specified in the pre-requisite plan,
                                   the establishment did not break down and clean the equipment during this
                                   process (although each saw had a low-pressure ―sanitizer‖ spray installed).
108
   In the slaughter area, the establishment’s pre-requisite plan called for the use of dedicated equipment for sawing under-and-over 30-month-old
carcasses, and we found the establishment to be in compliance with that requirement.
USDA/OIG-A/24601-0007-KC                                                                                                             Page 55
                                    The FLS was not aware that this had been occurring, while the Supervisory
                                    Public Health Veterinarian stated that this would not warrant writing an NR
                                    because there were no ―visible SRMs‖ on the equipment.109 During the audit,
                                    establishment management agreed to change their pre-requisite plan to ―rinse
                                    and sanitize‖ the equipment. Although we observed establishment employees
                                    actually breaking down the equipment for cleaning during our visit, the FLS
                                    stated that the pre-requisite plan – even as revised – did not specifically
                                    require anything beyond the ―continuous sanitation‖ provided by the
                                    sanitation sprayers attached to the saws.

                                    FSIS Headquarters officials also agreed that an NR was unnecessary because
                                    they believed the sanitizer spray was sufficient to address the problem. We do
                                    not agree with this position because the establishment was not following its
                                    own pre-requisite plan, and this alone should have generated an NR.

                                    We observed a similar situation at Establishment 10 where its employees
                                    used a single set of knives for removing the heads from carcasses of mixed
                                    ages. In addition, the establishment was using a single split saw to cut
                                    through the vertebral columns of these carcasses; and although establishment
                                    employees sprayed off the saw when switching from older carcasses back to
                                    under-30-month old carcasses, they did not break down the equipment and
                                    remove all visible debris as required by their pre-requisite plan. FSIS had not
                                    been aware that this was occurring, and agreed that the establishment was out
                                    of compliance. The PHV immediately dealt with the issue and the FLS stated
                                    a meeting would be held with establishment management to address the issue
                                    regarding the knives. The establishment took immediate corrective actions.
                                    However, FSIS again determined that an NR would not be written for the
                                    noncompliance.

                                    We also observed that at Establishment 1, the automatic denaturant system
                                    did not disperse denaturant in sufficient amounts to ensure that inedible
                                    materials – including SRMs – were clearly identified as being inedible. This
                                    system should spread denaturant evenly across the inedible material and be
                                    readily visible. However, during our visit, the denaturant was barely visible.
                                    FSIS agreed that the system malfunctioned, but stated that the system
                                    appeared to be functioning properly the last time they had checked. Title
                                    9 C.F.R. part 314.3 states that denaturant must be deposited in all portions of
                                    the carcass or product to the extent necessary to preclude its use for food
                                    purposes. The PHV agreed with this following our discussion, and wrote an
                                    NR to document the noncompliance.




109
   We noted – as we found at Establishment 10 – that there was a buildup of material inside the closed saw casing. Unlike at Establishment 10, however,
the PHV and FLS did not believe this qualified as ―visible SRMs.‖
USDA/OIG-A/24601-0007-KC                                                                                                                   Page 56
FSIS Did Not                         During the audit, when we pointed out apparent SRM noncompliances, FSIS
Take Consistent                      inconsistently issued regulatory citations (NRs). We attributed this to an
Enforcement                          inadequate understanding of SRM requirements, which in turn indicates a
Actions on SRM                       need for additional training. For instance, Establishment 3 and 4 both had
Violations                           deficiencies in their pre-requisite plans that resulted in similar
                                     noncompliances regarding the shipping and tracking of carcasses that
                                     contained SRMs. At Establishment 4, the PHV agreed with our assessment
                                     and immediately wrote an NR. At Establishment 3, however, the CSI stated
                                     that he believed the establishment had ―met the intent‖ of Directive
                                     6100.4 and refused to write an NR. He was subsequently overruled by the
                                     district manager, who stated that an NR would be written.110

                                     At Establishment 2, which was located in another district, we found that
                                     although the establishment’s pre-requisite plan was in compliance, it was not
                                     being followed. In this case, although the establishment was properly
                                     identifying the shipped carcasses as containing SRMs, they were not ensuring
                                     that downstream processors provided the required certifications that the
                                     SRMs had been removed. FSIS inspectors were not aware of the
                                     noncompliance before the audit, but did issue an NR when we notified them
                                     as to what we found. However, we were subsequently notified by the district
                                     office that the NR had been rescinded. An FSIS Headquarters official stated
                                     that the establishment was generally following their written procedure and the
                                     OIG finding represented only a ―minor variation,‖ despite the fact that nearly
                                     half of the downstream shipments we reviewed (23 of 43 shipments,
                                     involving over 540,000 pounds of product shipped) did not contain the
                                     required certification. The FLS for this establishment stated, however, during
                                     our visit that any deviation from an establishment’s written plan would justify
                                     an NR.

                                     Establishment 3 and 4 were both in the same district; and while both
                                     ultimately took equivalent enforcement action, in one case this only came
                                     about through the intervention of the district office. However, despite the fact
                                     that an FSA had recently been performed at Establishment 4, the district
                                     office only became aware of the deficiencies in the establishments’ pre-
                                     requisite plans as a result of our audit. Establishment 2 was in another district,
                                     which took a markedly different position on the enforcement of a situation
                                     similar to that found at the other two establishments. We believe that such
                                     inconsistencies further highlight the need for more effective management
                                     controls and training.


110
    FSIS Directive 6100.4 requires, among other provisions, that when an establishment ships meat products containing SRMs to other establishments for
additional processing, the shipping establishment must obtain written certifications from the processors that the SRMs have been removed before the
products are marketed. Neither of these two establishments reflected this in their pre-requisite plans; therefore, the required procedures were not being
followed.


USDA/OIG-A/24601-0007-KC                                                                                                                     Page 57
                   At Establishment 4, we also noted that FSIS inspectors did not require the
                   establishment to obtain age verification documentation for animals it
                   slaughtered. Although the establishment’s normal practice was to consider all
                   animals as over 30 months of age, it also occasionally slaughtered under-
                   30-month-old animals for one of its buyers. We found that the establishment
                   did not comply with its pre-requisite plan, which required age verification of
                   under-30-month old animals. The inspectors at this establishment disagreed
                   with the need to write an NR, stating that ―the establishment treated all
                   animals as over 30 months of age, so aging is not necessary.‖ District
                   officials, when they became aware of the situation, instructed the PHV to
                   write an NR.

                   As noted above, we found that Establishment 1 and 10 were not following
                   their pre-requisite plans in that they cut and/or sawed carcasses of mixed ages
                   but did not use dedicated equipment for each group or clean and sanitize the
                   saws when switching from older to younger cattle. However, neither of these
                   noncompliances resulted in inspectors writing an NR. Establishment 10 took
                   corrective actions, including the requirement that the saws be actually broken
                   down and cleaned rather than simply sprayed – a process which had left
                   visible SRMs in the enclosed areas of the saw casings. However, no NR was
                   written. An FSIS official stated that these issues ―did not deal with deviations
                   from critical control points within the HACCP plan.‖ However, Directive
                   6100.4 requires that FSIS inspection personnel issue an NR in any instance
                   where the establishment has failed to develop and implement procedures that
                   comply with 9 C.F.R. 310.22. Although Establishment 10’s procedures were
                   in compliance with the regulation, their implementation clearly was not. As a
                   result, we believe an NR should have been issued.

                   Likewise, at Establishment 1, FSIS declined to write an NR on the basis that
                   the low-pressure sprayers on the saws – a measure that the establishment’s
                   revised pre-requisite plan referred to as ―rinsing and sanitizing‖ – met the
                   requirements of Directive 6100.4. This action appeared inconsistent with the
                   actions taken at Establishment 10, since in both cases a buildup of material
                   was noted inside the closed saw casings. In any case, the presence of the
                   sprayer did not change the fact that Establishment 1 mixed the age groups
                   when sawing carcasses, which clearly violated the controls specified in its
                   pre-requisite plan.

                   We discussed these issues with two of the four EAROs, and asked how, or if,
                   they monitored the effectiveness of SRM verification activities. One stated
                   that SRM controls are primarily monitored through the FSAs, and that they
                   review some – but not all – of these. The other EARO stated that they do not
                   have a large role in monitoring SRM compliance because this is done at the
                   establishment level. Moreover, they do not have major concerns about SRMs
                   because they see relatively few NRs being written on these issues.

USDA/OIG-A/24601-0007-KC                                                                  Page 58
                    The noncompliances we observed at 5 of the 10 establishments visited
                    occurred for various reasons. In some cases, we noted that the PHVs did not
                    have up-to-date training on SRM issues – the training record for the PHV at
                    Establishment 2, for instance, did not list any SRM training at all. However, it
                    is uncertain whether lack of formal training can explain why in-plant
                    personnel were not aware of ongoing noncompliance, or did not recognize
                    them as such. However, we believe that the conditions noted during this audit
                    support the need for greater management control over SRM verification
                    activities. We question how EAROs can effectively use FSAs as the primary
                    tool to monitor compliance with SRM requirements. Also, we believe the
                    EARO’s lack of concern regarding SRM noncompliance because ―relatively
                    few NRs are written‖ may be questionable because, as disclosed during the
                    audit, there is inconsistent interpretation as to when NRs should be written.
                    Without documentation that there has been noncompliance, FSIS has no
                    means to assess risk and monitor trends in compliance with SRM control and
                    interventions.

                    Thus, under the current management control structure, there is reduced
                    assurance that district offices can become aware of situations that require
                    their intervention; the same would apply to the EAROs who supervise them.
                    Without adequate monitoring tools, FSIS may not become aware of situations
                    that require intervention until these reach a stage that requires a recall or other
                    enforcement action.

Recommendation 21

                    Provide specific guidance to FSIS personnel at all slaughter establishments to
                    verify that HACCP, SOP, and pre-requisite plans are in compliance with
                    FSIS regulations and directives. Ensure that this covers key provisions that
                    each establishment’s plans must address. Further, require the Inspector-in-
                    Charge (IIC) at each establishment to certify completion of this review to the
                    district office.

                    Agency Response

                    FSIS will issue an FSIS notice or revise Directives 6100.2, ―Post-Mortem
                    Livestock Inspection,‖ and 6100.4, ―Verification Instructions Related to
                    Specified Risk Materials,‖ to require the IIC at each slaughter establishment
                    to verify that his or her staff has reviewed the regulatory requirements and
                    verification instructions in the directives relative to SRM controls and the
                    establishment’s HACCP, Sanitation SOP, and prerequisite programs. These
                    issuances will contain a reporting or notification process that captures
                    whether the IIC at the establishment completes the review. The new
                    instructions will be issued by April 2009.



USDA/OIG-A/24601-0007-KC                                                                      Page 59
                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 22

                    Incorporate steps in future FSAs to verify that establishments’ HACCP, SOP,
                    and pre-requisite plans are in compliance with FSIS regulations and
                    directives regarding SRMs.

                    Agency Response

                    FSIS agreed that it was necessary to incorporate mechanisms into the FSA
                    process to ensure compliance with SRM requirements, and has modified the
                    FSA documentation to include these requirements. As part of the PHIS data
                    infrastructure enhancement initiative, the FSA documentation process has
                    been improved to a question and answer format and includes an SRM section
                    within the 03J meat slaughter FSA tool. These questions lead the EIAO to
                    verify that slaughter establishments are complying with 9 CFR 310.22. These
                    FSA tools already are in use and related training continues.

                    Over 300 EIAOs, EIAO-trained PHVs, case specialists, deputy district
                    managers, and district managers were trained during the summer of 2008 in
                    the use of these tools as part of the Advanced EIAO training course. The tools
                    have been incorporated into the basic EIAO training course, and FSIS plans
                    to conduct 3 more Advanced EIAO training courses starting in January
                    2009 for the remaining EIAO-trained PHVs and district office personnel.
                    Training is expected to be completed by May 2009.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 23

                    Implement procedures to require that, as part of their supervisory visits, FLSs
                    provide ongoing oversight to FSIS inspectors in their SRM-related inspection
                    duties.

                    Agency Response

                    As noted earlier, FSIS has made improvements to the IPPS Supervisory
                    Guidelines that will result in better accountability for carrying out SRM-
                    related and other inspection activities. The new guidelines will contain
                    explicit instructions for conducting IPPS assessments and testing the
                    knowledge of in-plant inspection personnel on the policies and procedures for
USDA/OIG-A/24601-0007-KC                                                                  Page 60
                    which they are responsible, as well as how to observe their performance of
                    inspection and verification procedures. The guideline provides a ―work
                    method‖ to ensure that the supervisors ask the right questions and observe the
                    performance of the inspection personnel on every aspect of their jobs,
                    including whether inspection personnel perform verification of an
                    establishment’s SRM controls correctly. These observations are required to
                    be documented on the IPPS report in AssuranceNet. If supervisors find
                    deficient performance, they are to ensure remedial action is taken, i.e.,
                    correlation, re-training, and to perform a follow-up IPPS within 60 days and
                    document their observations during that follow-up session. FSIS plans to
                    issue the revised guideline in December 2008.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 24

                    Strengthen guidance to clarify when NRs should be written for
                    noncompliance with controls for the removal, segregation, and disposal of
                    SRMs, including noncompliance with controls specified in establishment pre-
                    requisite plans.

                    Agency Response

                    FSIS will issue a new notice by March 2009 that clarifies when NRs should
                    be written for noncompliance with controls for the removal, segregation, and
                    disposal of SRMs, including noncompliance with controls specified in
                    establishment pre-requisite plans.

                    OIG Position

                    We accept FSIS’ management decision.

Recommendation 25

                    Assess the level of training needed by both FLSs and in-plant inspectors on
                    SRM verification responsibilities, and develop controls to ensure that such
                    training is provided in a timely manner.

                    Agency Response

                    FSIS will ensure that all FLSs, as well as in-plant inspectors and PHVs
                    performing SRM verification, complete the updated SRM training course in
                    AgLearn. To ensure appropriate inspection personnel receive needed training,
                    OFDER/DAIG will conduct quarterly analyses of the training data and
USDA/OIG-A/24601-0007-KC                                                                  Page 61
                   provide a report to the Office of Outreach, Employee Education, and Training
                   and the districts so that they can follow up with those inspection personnel
                   that have not received needed training. FSIS estimates that all appropriate
                   inspection personnel will receive this training by April 2009.

                   OIG Position

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-0007-KC                                                               Page 62
Scope and Methodology
                   We performed our audit at FSIS Headquarters in Washington, D.C., 6 FSIS
                   district offices, and 10 cull cattle slaughter establishments between March
                   and June 2008. To accomplish our objectives, we interviewed responsible
                   FSIS personnel and establishment employees who worked at Hallmark-
                   Westland Meat Packing Company (Hallmark) in Chino, California, as well as
                   reviewed pertinent establishment and FSIS records gathered for OIG’s
                   criminal investigation into potential violations of the Federal Meat Inspection
                   Act. The investigation is ongoing and OIG Investigations is working
                   cooperatively with FSIS OPEER and other law enforcement agencies, as well
                   as coordinating their efforts with the U.S. Department of Justice. The purpose
                   of our involvement in selected aspects of the investigation was to determine
                   what inspection controls or processes may have broken down at Hallmark
                   that allowed the egregious humane handling violations to occur.

                   Hallmark slaughtered cull cows. We concluded that establishments that
                   slaughter cull cows are a higher risk for potential humane handling concerns
                   because of the condition, age, and health of the animals slaughtered.
                   Therefore, we limited the scope of this audit to FSIS pre-slaughter activities
                   at cull slaughter operations to determine whether the conditions or abuses that
                   occurred at Hallmark were isolated or systemic. Because this is an ongoing
                   investigation, the audit is limited by the information we have to date.

                   During the audit, we interviewed appropriate FSIS officials, reviewed files,
                   procedures, and operations related to FSIS’ performance of and oversight
                   over, pre-slaughter activities. We observed ante-mortem inspections, as well
                   as FSIS’ oversight over the accountability of animals moving from ante-
                   mortem inspection to slaughter. We examined post-mortem controls over the
                   monitoring and removal of SRMs and evaluated compliance with inspector-
                   generated residue sampling and testing procedures. Our review covered
                   current slaughter operations and we examined prior inspection and slaughter
                   records (calendar years 2006 and 2007), as necessary.

                   FSIS Headquarters and Field Offices

                   At FSIS Headquarters, we determined the responsibilities of the following
                   offices as they relate to pre-slaughter activities, SRMs, and residue sampling
                   and testing:

                      Program Evaluation, Enforcement and Review—assesses FSIS program
                      functions and operations;


USDA/OIG-A/24601-0007-KC                                                                 Page 63
                      Field Operations—manages the national program of inspection and
                      enforcement activities;

                      Policy  and     Program     Development—develops              and     makes
                      recommendations concerning all domestic policy;

                      Public Health Science—provides scientific analysis, advice, data, and
                      recommendations regarding matters involving public health and science;

                      Office of Outreach, Employee Education and Training—provides
                      education resources and technical support; and

                      Office of Management—provides a full range of administrative and
                      support services.

                   We obtained and analyzed data covering the period January 2006 through
                   April 2008 from FSIS’ automated data and reporting systems (PBIS),
                   Electronic Animal Disposition Reporting System (eADRS), Residue
                   Violation Information System (RVIS), related to ante-mortem inspection,
                   control of SRMs, and residue sampling and testing, and HATS. We also
                   evaluated management use of PBIS, eADRS and/or HATS to monitor
                   inspection operations and evaluated whether FSIS used these data to
                   effectively monitor and supervise inspection activities.

                   We performed audit work at the following six FSIS district offices. They
                   were selected because they provide management oversight of the 10 slaughter
                   establishments included in this audit.

                           Alameda, California
                           Des Moines, Iowa
                           Lawrence, Kansas
                           Philadelphia, Pennsylvania
                           Dallas, Texas
                           Madison, Wisconsin

                   We visited the FSIS Financial Processing Center in Urbandale, Iowa, to gain
                   familiarity and understanding of time and attendance reporting requirements
                   for inspection personnel, and policies and procedures for entering FAST test
                   screening results into the automated system for recording these results.

                   During our audit field work, we also visited the Midwestern and Western
                   FSIS laboratories in St. Louis, Missouri, and Alameda, California,
                   respectively, to evaluate their roles and responsibilities regarding the residue
                   sampling and testing program. At the laboratories, we interviewed laboratory


USDA/OIG-A/24601-0007-KC                                                                  Page 64
                   officials and staff regarding residue testing policies and laboratory
                   procedures, and observed sample processing at the laboratories.

                   Slaughter Establishments

                   We selected 10 of the top 49 establishments that slaughter cull cows. We
                   considered such factors as 2007 slaughter statistics, geographic
                   representation, relative establishment size, and participation in Government
                   feeding programs. These animals would generally be over 30-months old and
                   be subject to full compliance with SRM requirements. Four of the
                   establishments reviewed supplied product to five processors who provided
                   59.7 percent of processed beef used in the National School Lunch Program.

                   We made unannounced visits to these establishments, observed pre-slaughter
                   inspection operations, and held discussions with establishment officials, FSIS
                   PHVs, front-line supervisors, and inspectors to obtain an understanding of
                   their responsibilities and to become familiar with the establishments’
                   operations. We observed FSIS’ ante-mortem inspections and post-mortem
                   inspection practices relating to SRM removal and residue testing. We
                   interviewed in-plant inspectors and PHVs, obtained records/documentation to
                   support the procedures for the identification, handling, removal, segregation,
                   and disposal of SRMs. We interviewed FSIS personnel, and obtained and
                   reviewed documentation used in support of the inspection operations
                   reviewed, including tracking the identification of suspected residue animals
                   through the FAST test screening process and residue sample collection at the
                   establishments.

                   We also reviewed the establishments’ NRs to identify SRM violations, and
                   food safety assessments and reports of humane handling verification visits to
                   determine whether any of the conditions identified during the audit were
                   previously identified by FSIS.

                   To accomplish our audit objectives, we:

                      Identified and reviewed laws, regulations, policies, and procedures related
                      to humane handling, residue testing, SRMs, and pre-slaughter and post-
                      mortem inspection requirements;

                      Obtained and reviewed performance reports prepared by the
                      establishment or 3rd parties for its monitoring or supervision activities of
                      pre-slaughter/humane handling operations where available;

                      Evaluated FSIS controls/processes that are to provide oversight and
                      monitoring of inspection operations;



USDA/OIG-A/24601-0007-KC                                                                 Page 65
                      Evaluated the effectiveness of management controls FSIS put into place
                      in response to our prior audit recommendations. Specifically, how FSIS
                      management verifies inspectors are in compliance with SRM control
                      procedures and identifies trends in NRs through the use of PBIS
                      enhancements, IPPS, and AssuranceNet reviews;

                      Obtained FSIS’ procedures (staffing models/standards) used to assign
                      inspection resources and supervisory levels for oversight at slaughter
                      establishments;

                      Evaluated FSIS’ organization control over the development and training
                      of its inspection resources; and

                      Contacted various international experts, academia,             and     other
                      knowledgeable industry individuals, as necessary.

                   We conducted this performance audit in accordance with government
                   auditing standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                   for our findings and conclusions based on our audit objectives. We believe
                   that the evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.




USDA/OIG-A/24601-0007-KC                                                                   Page 66
  Exhibit A – Pre-Slaughter Inspection Issues
                                                                                 Exhibit A – Page 1 of 1


  ISSUES                                                              ESTABLISHMENTS
                                                           H     1   2 3 4 5 6 7 8              9   10
  No documentation of suspect animals at                   X         X X X                          X
  ante-mortem inspection.
  Ante-mortem         inspections      were                X         X X     X X X X                X
  performed by non-veterinarians outside
  the immediate supervision of a PHV.
  Food inspectors performing ante-mortem                                     X X
  inspection did not have required formal
  training.
                                                           111
  Animals were not observed both in                                                        X X X
  motion and at rest during ante-mortem
  inspection.
  Animals were viewed in groups rather                     111   X           X             X X
  than individually during ante-mortem.
  Animals were not viewed from both sides                  111   X                              X X
  during ante-mortem.
  Ear tags were not used to identify suspect               X     X X X       X                  X X
  animals.
  Ear tags were not used to identify                       X     X
  condemned animals.
  No reconciliation of animal counts per                   111   X X         X             X
  pen cards to establishment slaughter
  records.
  Accuracy of pen cards not verified                       111   X                         X        X
  through actual counts of animals in pens.
  PHV pre-signed pen cards before                          111               X
  performing ante-mortem inspection.
  Suspect animals were not slaughtered                     X     X X
  separately from other animals.
  Disposition of animals that become non-                  111                                  X X
  ambulatory after ante-mortem inspection
  not adequately documented.
  Downer doors, winches, and additional                    111   X         X X X X X                X
  knock-sites not under FSIS lock.




111
      For Hallmark, we have no information in this area.


USDA/OIG-A/24601-0007-KC                                                                                   Page 67
Exhibit B – Residue Testing Issues
                                                              Exhibit B – Page 1 of 1



     ISSUES                                         ESTABLISHMENTS
                                         Hallmark 1 2 3 4 5 6 7 8 9 10
     Inspector-generated residue testing    X     X     X X X X X X    X
     were not based on herd history.
     Establishment personnel delegated      X           X X    X     X
     responsibility for collecting test
     samples.
     Test samples were not adequately                X    X        X
     secured while at establishments.
     FSIS depended upon establishment                        X     X
     personnel for notification when
     animals were received from known
     violators.




USDA/OIG-A/24601-0007-KC                                                   Page 68
Exhibit C – Specified Risk Material Issues
                                                                                                                               Exhibit C – Page 1 of 1



ISSUES                                                                                            ESTABLISHMENTS
                                                  1 2                                              3 4    5 6 7 8 9 10
FSIS did not ensure that establishments                                                            X X
adequately reassessed their HACCP System for
SRM control.
Establishments did not follow pre-requisite plans     X
for shipping to downstream processors.
Establishments did not properly carry out SRM                                                                                                    X
removal.
Establishments did not use dedicated or properly X                                                                                               X
cleaned equipment when cutting products that
contained SRMs.
FSIS did not take enforcement actions on SRM X112 X113 X X114                                                                                  X115
violations.




112
    FSIS Headquarters officials stated that an NR was unnecessary because they believed the sanitizer spray was sufficient to address the problem.
113
    In-plant inspection personnel did issue an NR when we notified them as to what we found. However, we were subsequently notified by the district
office that the NR had been rescinded. An FSIS Headquarters official stated that the establishment was generally following their written procedure and the
OIG finding represented only a ―minor variation.‖
114
    In-plant inspection personnel disagreed with the deficiency. However, the district office agreed and directed the in-plant personnel to write an NR.
115
    In-plant inspection personnel did not write an NR because they concluded the cited deficiency did not represent a violation of a critical control point.
USDA/OIG-A/24601-0007-KC                                                                                                                       Page 69
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 1 of 16




USDA/OIG-A/24601-0007-KC                                               Page 70
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 2 of 16




USDA/OIG-A/24601-0007-KC                                               Page 71
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 3 of 16




USDA/OIG-A/24601-0007-KC                                               Page 72
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 4 of 16




USDA/OIG-A/24601-0007-KC                                               Page 73
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 5 of 16




USDA/OIG-A/24601-0007-KC                                               Page 74
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 6 of 16




USDA/OIG-A/24601-0007-KC                                               Page 75
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 7 of 16




USDA/OIG-A/24601-0007-KC                                               Page 76
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 8 of 16




USDA/OIG-A/24601-0007-KC                                               Page 77
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 9 of 16




USDA/OIG-A/24601-0007-KC                                               Page 78
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 10 of 16




USDA/OIG-A/24601-0007-KC                                                Page 79
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 11 of 16




USDA/OIG-A/24601-0007-KC                                                Page 80
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 12 of 16




USDA/OIG-A/24601-0007-KC                                                Page 81
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 13 of 16




USDA/OIG-A/24601-0007-KC                                                Page 82
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 14 of 16




USDA/OIG-A/24601-0007-KC                                                Page 83
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 15 of 16




USDA/OIG-A/24601-0007-KC                                                Page 84
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 16 of 16




USDA/OIG-A/24601-0007-KC                                                Page 85
Informational copies of this draft report have been distributed to:

Administrator, FSIS                                          (20)
       Attn: Agency Liaison Officer
Government Accountability Office                             (1)
Office of Management and Budget                              (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division        (1)
